<html>
<title> - [H.A.S.C. No. 112-56]THE WAY AHEAD IN AFGHANISTAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-56]
 
                      THE WAY AHEAD IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 27, 2011


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
68-164                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Ben Runkle, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, July 27, 2011, The Way Ahead in Afghanistan...........     1

Appendix:

Wednesday, July 27, 2011.........................................    43
                              ----------                              

                        WEDNESDAY, JULY 27, 2011
                      THE WAY AHEAD IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Barno, LTG David W., USA (Ret.), Senior Advisor and Senior 
  Fellow, Center for a New American Security.....................     6
Keane, GEN John, USA (Ret.), Senior Partner, SCP Partners, 
  President, GSI, LLC............................................     4
West, Hon. Francis J. ``Bing,'' Former Assistant Secretary of 
  Defense for International Security Affairs, U.S. Department of 
  Defense........................................................     9

                                APPENDIX

Prepared Statements:

    Barno, LTG David W...........................................    62
    Keane, GEN John..............................................    51
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Smith, Hon. Adam.............................................    49
    West, Hon. Francis J. ``Bing''...............................    72

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    81
    Mr. Conaway..................................................    82
                      THE WAY AHEAD IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 27, 2011.
    The committee met, pursuant to call, at 10:10 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I apologize for being late. We had a conference, and I was 
engrossed in what was going on, and Mac leaned over and says, 
are you going to start the hearing? And it was 5 after 10:00. I 
apologize.
    Good morning. The House Armed Services Committee meets 
today to receive testimony on the way forward in Afghanistan, 
particularly in light of the President's recent decision to 
withdraw 10,000 U.S. troops from Afghanistan by the end of the 
year and the remaining 23,000 surge forces by next summer.
    As I noted during our hearing with the Department last 
month, I am deeply concerned about the aggressive troop 
withdrawals proposed by President Obama. Every witness before 
this committee this year has testified that the comprehensive 
counterinsurgency strategy the President committed to in 
December of 2009 is bearing fruit.
    In recent congressional testimony, both Chairman of the 
Joint Chiefs of Staff Admiral Michael Mullen and now former 
International Security Assistance Force Commander, General 
David Petraeus, stated that the President's formulation went 
beyond the options they had recommended. Both Mullen and 
Petraeus noted that the approaches they had recommended would 
have assumed less risk.
    I am particularly concerned about the specific timing of 
the redeployment of the surge forces. General Petraeus 
reportedly recommended that the bulk of the surge forces be 
redeployed by the end of 2012, thereby making them available 
through the end of 2012 fighting season. Instead, many of the 
redeploying units will be tied up, making their logistical 
preparations for redeployment during the height of the fighting 
season. This suggests that the redeployment deadline did not 
reflect a carefully conceived operational plan, but rather was 
designed to conform to the political calendar.
    Although troop strength is not the only variable in 
determining strategic success or failure in Afghanistan, it 
affects all other variables by shaping the perceptions of 
America's commitment to that country and its people.
    Fears of wavering resolve will further incentivize Afghan 
corruption, as the possibility of renewed civil war may cause 
Afghans to seek short-term profits. Such doubts would also 
undermine efforts to end the war through some sort of 
reconciliation process.
    U.S. commanders reportedly have until October 15 of this 
year to submit a plan regarding the details of the remaining 
2012 redeployments; however, on a July 6 press conference, 
then-ISAF [International Security Assistance Force] Joint 
Commander Lieutenant General David Rodriguez identified units 
that were coming out of Afghanistan starting this month. It is 
not entirely clear whether these units were never intended to 
be replaced and, therefore, not part of the President's plan, 
or if the redeployment is occurring in advance of October 15.
    Thus this hearing comes at a particularly opportune time to 
consider the strategic alternatives for the war effort in 
Afghanistan. Can we maintain the current balance between 
counterinsurgency and counterterrorism operations in light of 
troop reductions? Will we be able to shift the focus of 
operations from RC [Regional Command]-South and Southwest to 
RC-East as originally planned? What are the implications for 
our reduced footprint on our training, advise and assist 
missions? These are merely a few of the strategic 
considerations this committee must consider in exercising its 
oversight role in this critical conflict.
    Fortunately, today we have three uniquely expert witnesses 
to discuss our way ahead in Afghanistan, and we are happy to 
have them here.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]
    Mr. McKeon. Ranking Member Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and thank you for 
holding this hearing and bringing in such well-qualified 
witnesses. This is a subject that this committee and I think 
the broader Congress needs to be more focused on. Certainly 
with the debt crisis swirling around us, it has sucked all of 
the oxygen and all of the focus to some degree, as well it 
should, but we still have 100,000 U.S. troops in Afghanistan, 
and this is still the central piece of our national security 
strategy and something that we all need to become more informed 
on. So I look forward to the testimony from our three very 
well-qualified witnesses and to the discussion that follows.
    I think we also need to recognize, as the chairman did, the 
tremendous success that our troops have brought us in the last 
18 months. The surge has been successful. For all of the 
problems and challenges in that region in Pakistan and 
Afghanistan, I think much of the reporting often misses this 
point. For those of us who have been there over the years, you 
can see the progress, and I see that reflected in much of the 
testimony today, that has been made particularly in the South. 
We have pushed back the Taliban, held ground, and, I think, as 
importantly, done more than just focus on the military side of 
this. We have begun to focus on the governance side of this as 
well.
    When I was in Afghanistan last time, I had never seen so 
many folks from the State Department, from USAID [U.S. Agency 
for International Development], from the Agriculture 
Department, and Justice Department recognizing the need to get 
the governance right. So we have made progress, and our troops 
are to be commended. They did so with great courage and at 
great sacrifice.
    Now I think the great challenge going forward is how we 
begin to make the hand-off to the Afghan Government. We have to 
do that. We cannot stay forever for a variety of different 
reasons. And in this part of the world, that is not an easy 
thing to do. Afghanistan does not have a history of stable 
governance. They do not have a history of a stable economy. No 
matter when and how we do this, it is going to be fraught with 
risk, and it is going to be difficult. But we must begin that 
process.
    And I think that is the thing I look forward to hearing 
most from our witnesses, what is the best and smartest way to 
do that. And it is a matter of managing risk. It is not a 
matter of saying if we just stay an extra year, then we can be 
absolutely sure that the successes that we have had will hold. 
There is no perfect time to do this, so we need to figure out 
how to do it best as we are moving forward.
    This is an extraordinarily difficult part of the world. As 
I have said many times, I wish we did not have national 
security interests in Afghanistan and Pakistan. It is a very 
complex and difficult place with severe governance problems, 
both in Pakistan and Afghanistan. But the truth is we do have 
very strong national security interests in Afghanistan and 
Pakistan, and they are relatively simple.
    We want stable governments in both countries that can stand 
so the violent extremists like Al Qaeda and the Taliban, both 
in Afghanistan and Pakistan, aren't able to take over those 
governments or even hold substantial areas of space so that 
they can plot and plan attacks against us. That is our 
interest, but it is very difficult to achieve. And I look 
forward to hearing from our witnesses today as to how we should 
best proceed going forward with our plans to achieve those 
interests.
    With that, I yield back. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Thank you.
    We have with us three retired military people who have 
dedicated their lives to service to our country. We are happy 
to have you here.
    General Jack Keane is former Vice Chief of Staff of the 
Army, one of the authors of the successful 2007 Iraq surge, and 
has recently returned from an assessment trip to Afghanistan.
    Lieutenant General David Barno commanded Combined Forces 
Command Afghanistan from 2003 to 2005 and is coauthor of the 
study Responsible Transition: Securing U.S. Interests in 
Afghanistan Beyond 2011.
    And Former Assistant Secretary of Defense and Marine 
Colonel ``Bing'' West is the author of the counterinsurgency 
classic, The Village, and, more recently, The Wrong War, drawn 
from his experiences embedded with units in Afghanistan.
    Gentlemen, thank you for your service. Thank you for being 
here with us today.
    We will hear first from General Keane.

 STATEMENT OF GEN JOHN KEANE, USA (RET.), SENIOR PARTNER, SCP 
                 PARTNERS, PRESIDENT, GSI, LLC

    General Keane. Thank you, Mr. Chairman, ranking minority 
and members of the committee, for allowing me once again to 
testify on the war in Afghanistan.
    I truly appreciate my distinguished colleagues who have 
joined me here today and the contribution that they have made 
and will continue to make.
    I just completed this month an assessment for General 
Petraeus in Afghanistan and briefed General John Allen, General 
Petraeus' successor, who is now the Commander of International 
Security Assistance Forces Afghanistan. This is the third 
assessment in less than a year. Let me briefly provide some 
highlights from that assessment, which we can explore further 
in questions and answers if you desire.
    The President's recent drawdown decision of 33,000 troops 
no later than September 2012 has increased the risk 
significantly and threatens the overall mission success. The 
ISAF Command is conducting detailed assessments of the drawdown 
impacts and what can be done to mitigate the risk.
    The Taliban have suffered a stunning defeat in the South, 
in Kandahar and Helmand Province, so much so that it is not 
reversible unless we draw down ISAF troops in those provinces 
prematurely.
    I am making a statement it is not reversible after 
considerable analysis, and there are three major reasons. 
First, we own the ground and are staying on it with Afghan 
National Security Forces and not departing as we have done so 
many times in the past. The Taliban have tried to come back and 
have failed time and time again during this spring and summer 
offensive. They are reduced to softer targets, assassinations 
and attacks on the Afghan people.
    Number two, we have destroyed the Taliban's logistical 
infrastructure. Their IED [improvised explosive device] 
factories and caches numbers well over 1,000, which prevents 
the Taliban from sustaining their operations.
    And number three, the people are aligned with ISAF and the 
Afghan National Security Forces and, as such, are providing 
assistance with tips, early warnings and cache locations. In 
fact, a highly respected intelligence chief with considerable 
experience believes the Taliban and the people in Kandahar 
Province after many years are ``getting a divorce.''
    In the South, therefore, we have a much improved security 
situation, which, in time, the Afghan National Security Forces 
will be able to take over and, in fact, lead. The security 
situation in the South improved dramatically because of the 
President of the United States' decision to escalate the war 
and provide much-needed additional resources. Most of the so-
called surge forces were applied in the South, the birthplace 
and center of gravity of the Taliban.
    Secondly, the Afghan National Security Forces have improved 
in quality and quantity and now number about 300,000, with a 
final force level of 352,000. This proves once again that 
quantity does have a quality all of its own.
    Moreover, the Afghan Local Police, or ALP, essentially 
part-time village police selected by village elders, trained by 
the Special Forces to protect the villages in the contested 
areas after the Taliban have been driven out, is a potential 
game changer and one of the most successful programs that we 
have enacted.
    And, finally, there is a noticeable improvement in 
governance in the South, and the degree that this exists, 
frankly, did surprise me. With better leadership in district 
and subdistrict governors and in numerous elected councils at 
the village and district levels, government capacity has 
improved, but there is a long way to go before the national 
government is providing effective services at the local level.
    Our next major contested area, which the chairman 
mentioned, is the East, from Kabul to the Pakistan border. We 
have been conducting a defense in depth from that Pakistan 
border to Kabul, which, by and large, has been successful in 
that Kabul is relatively stable, and the legitimacy of the 
national government is not threatened by the insurgency.
    All that said, to defeat the Taliban and the Haqqani 
network in the East, it must become our main effort, and it 
will require an aggressive, comprehensive campaign. Those plans 
are in the making as we speak.
    Remember, the campaign in the South and the one in the 
East, which we are talking about, are not being conducted 
simultaneously, but sequentially, because the President of the 
United States' 2009 decision did not provide the 40,000 
requested forces by Generals McChrystal and Petraeus. The 
command received 30,000, thus a sequential operation and not 
simultaneously conducted. Indeed, the campaign in the East is 
further threatened by the imminent withdrawal of one-third of 
our U.S. forces by September 2012.
    We cannot discuss the security situation in Afghanistan 
without mentions of the sanctuaries in Pakistan, which are the 
engine of the insurgency. They are Chaman and Quetta in the 
South and Miranshah in the East. Almost all of the middle- and 
senior-level leaders of the insurgency come from these 
sanctuaries. Many of the fighters and 80 percent of all the 
material for IEDs originate in Pakistan factories.
    To succeed in Afghanistan, something must be done about the 
sanctuaries. A few points of emphasis. We lack a regional 
strategy for South Asia, which Afghanistan and Pakistan are an 
important part.
    We must recognize our soft policy with Pakistan as it 
pertains to the sanctuaries has failed.
    There is no doubt that General Kayani and General Pasha, 
the Chief of Staff and Director of ISI [Inter-Services 
Intelligence], are complicit in supporting the sanctuaries. We 
need a new approach diplomatically that recognizes their 
manipulation of the United States Government and, frankly, how 
destructive the military oligarchy is to the future growth and 
development of Pakistan.
    We all know that the Pakistanis are paranoid about their 
political and competitive struggle with India, but we should 
recognize that the Pakistanis have clearly lost. India is a 
democracy which is one of the fastest growing economies in the 
world, and Pakistan is moving in the opposite direction.
    And, moreover, in reference to the sanctuaries, we must 
consider covert and military operations against the 
sanctuaries. It should be on the table.
    And let me conclude by saying significant progress has been 
made in Afghanistan, but success is certainly not guaranteed. 
The consequences of failure and the direct impact to the 
security of the United States are unacceptable.
    Many challenges remain. We lack a coherent political and 
economic strategy for Afghanistan. Ryan Crocker, who took his 
post this week as the United States Ambassador, will do much to 
turn around that reality. He is the best in the United States 
Government and will truly make a difference.
    We need a red line for President Karzai not staying in 
power. It is unacceptable that he would manipulate the 
political forces to do that very thing.
    The Strategic Partnership Agreement, or SPA, impacts our 
success. It anchors our commitment and communicates the same to 
all of the players in and outside of Afghanistan. The sooner we 
achieve this agreement, which is being negotiated now, the 
better.
    At a minimum, the 33,000 drawdown no later than September 
2012 should be moved to no later than December 2012 to permit 
all those forces to be used during the entire fighting season 
of 2012.
    While Afghanistan is hard and it is complicated, to be 
sure, we can accomplish the mission of transition to the Afghan 
National Security Forces. Protracted wars test the mettle of 
our great democracy. This war is worth fighting, and it is most 
certainly worth winning. Our courage, moral and financial 
support, and political determination to see it through, is 
essential to success.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane can be found in 
the Appendix on page 51.]
    The Chairman. Thank you.
    General Barno.

STATEMENT OF LTG DAVID W. BARNO, USA (RET.), SENIOR ADVISOR AND 
       SENIOR FELLOW, CENTER FOR A NEW AMERICAN SECURITY

    General Barno. Chairman McKeon, Ranking Member Mr. Smith, 
members of the committee, thanks for providing me the 
opportunity to share my views with you today on the way ahead 
in Afghanistan.
    In addition to my 19 months serving in Afghanistan as the 
overall U.S. and coalition Commander, I stayed actively engaged 
in analyzing our efforts across the region. I have traveled 
back to both Afghanistan and Pakistan several times in recent 
years, with my most recent trip being a week-long visit to 
Pakistan in January of this year, from which I drew some very 
interesting conclusions about Pakistan's role and as we look at 
the road ahead here.
    Also I have two sons that are Active Duty Army officers who 
sent many of the last several years shuttling in and out of 
Afghanistan, and I stay up-to-date on what the war looks like 
through young officers', young captains' eyes, through their 
experiences. It also gives me an appreciation of the sacrifices 
our families are making connected to the military all across 
this country as they face deployments that continue for their 
loved ones into this part of the world.
    The last time I testified in front of the committee was 
March of 2009. At that time I gave an assessment of the 
situation in Afghanistan, and I presented a framework for what 
I believe would achieve success there. And I characterized it 
as a math equation, that success equals leadership plus 
strategy plus resources. Leadership plus strategy plus 
resources.
    In 2009, I outlined in some detail why I thought all three 
of those categories were falling short in Afghanistan; 
leadership, strategy and our resources. The good news today is 
that in each of these three variables, the United States has 
dramatically improved its position since 2009, much of which 
General Keane has so carefully articulated.
    I would tell you that General Stan McChrystal, Dave 
Petraeus and now John Allen have brought huge talent and 
counterinsurgency experience to bear in Afghanistan, and it has 
had an immensely positive effect on the war. Resources have 
been increased dramatically, both in dollars and in troops, and 
they have enabled a new strategy to make our new military and 
civilian leadership over the last 2 years--to enable them to 
make substantial, although I think fragile still, gains. That 
progress was wholly missing, entirely absent in 2009.
    Sustaining the success of the last 18 months will perhaps 
now be even more difficult than the campaign over the last 2 
years that have wrenched the momentum way from the Taliban and 
put them on their back foot. I would suggest that as General 
Allen and Ambassador Crocker now take the reins of the effort, 
they face five major challenges.
    First, I think we have got to find a way to dispel the 
uncertainty about U.S. intentions over the long term with 
regard to Afghanistan and the region. Failing to clearly make 
commitments that outline a long-term U.S. presence in the 
region encourages all the actors in the region to hedge their 
bets, to base all of their calculations on the question, What 
would this decision look like the day after the Americans are 
gone?
    Such uncertainty about U.S. intentions deeply undercuts our 
leverage and our long-term goals in the region. And the hard 
reality is that we cannot protect our vital interests in the 
region, keeping relentless pressure on Al Qaeda, without at 
least a limited U.S. military presence.
    The second challenge is that we must rebuild our 
relationship with Pakistan. During the week I visited there in 
January, we had an American kill two Pakistanis. A third died 
as a result of that incident. That began a downward spiral of 
our relations that was only accelerated by the death of Osama 
bin Laden with the U.S. Special Operations strike.
    While rebuilding these relations is outside of General 
Allen and Ambassador Crocker's responsibility directly in 
Kabul, our strategic goals in the region center much more on 
Pakistan than they do on Afghanistan in the long haul.
    Pakistan is the second largest Islamic country in the 
world. It has somewhere in the neighborhood of 100 nuclear 
weapons. Its population today is 187 million compared to 30 
million next door in Afghanistan, the second poorest country in 
the world. By 2050, Pakistan will have 300 million Pakistanis, 
almost as large as the United States is today.
    Our new Afghan leadership team, therefore, has got to work 
closely with our leadership team in Islamabad, our Ambassador 
there, Cameron Munter, and our U.S. senior military leader, 
Lieutenant General Ken Keen to think through a regional 
approach to U.S. policy in this part of the world. Now, one 
could argue they ought to be implementing a regional U.S. 
policy, but in reality, as General Keane pointed out, we really 
don't have a discernible regional security strategy for South 
and Central Asia, which I think is essential.
    The third challenge we have got in the coming months is to 
rebuild relations with President Hamid Karzai, at the same time 
opening the doors for his transition in 2014. The U.S. is 
beginning to think about this now and in midterm planning needs 
to start look at setting conditions for a constitutional 
transition of power by President Karzai to some unknown 
successor.
    Part of what Ambassador Crocker is going to need to do is 
help build that bench of possible candidates out there, or at 
least encourage the establishment of that in the coming years 
to ensure a peaceful transition of power to sustain all the 
political efforts in Afghanistan over the last 10 years. This 
is a critical part of a political strategy that the U.S. has a 
fairly limited outline of today.
    Fourth, our new team in Kabul has got to focus on 
continuing the effort to defeat the enemy's strategy, both Al 
Qaeda's strategy and the Taliban's strategy. I think Al Qaeda 
has taken very serious blows over the last 18 months, but I 
also would argue that their looming demise, that their 
destruction is not something that is imminent; that we still 
face a very deadly enemy out there who is not only in this part 
of the world, but has reached his tentacles to the Arabian 
Peninsula and to North Africa. We have to continue to keep 
relentless pressure on his headquarters, as it were, in South 
and Central Asia.
    In the case of the Taliban, we have to defeat a strategy 
that, simply put, is ``run out the clock:'' Run out the clock 
on the Americans, await the international efforts departure, 
and continue the fight. As we continue to signal about our 
long-term intentions and don't articulate what our plans are 
beyond 2014, we continue to add a brighter light at the end of 
the Taliban's tunnel.
    And, finally, our new team in Kabul has got to manage a 
transition to a future over the next few years with fewer U.S. 
resources, both in troops and in dollars, matched against our 
war aims, which really have not changed, to achieve our 
objectives there.
    As we know, U.S. troops are going to decline 33,000 in the 
next 18 months or so, and at the same time those troops go 
down, the dollars associated with spending for them in country 
are going to decline as well. We have to be very cautious that 
this decline in U.S. spending in Afghanistan doesn't completely 
destroy the Afghan economy and undercut all of our other 
efforts.
    So in closing now, I would just say that the most important 
point I think we have to consider today is that the U.S. has 
vital national security interests in this part of the world 
that transcend our efforts in Afghanistan. As we negotiate this 
upcoming transition, as we navigate these challenging waters in 
the next 3\1/2\ years towards 2014, we have to make sure this 
transition ultimately protects those vital interests and 
doesn't put them at great risk.
    Thank you.
    [The prepared statement of General Barno can be found in 
the Appendix on page 62.]
    The Chairman. Thank you, General.
    Secretary West.

 STATEMENT OF HON. FRANCIS J. ``BING'' WEST, FORMER ASSISTANT 
 SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. West. Mr. Chairman, members of the committee, thank you 
very much for having me. As the token marine today, I will 
attempt to keep my remarks very brief.
    I would like to start by saying that I agree entirely with 
General Keane that this decision of when to withdraw the troops 
was manifestly not an operational plan. And it is regrettable, 
but there we are.
    I do believe that our objective has been achieved in 
Afghanistan and will continue to be achieved provided the 
Afghan Army holds together. Our objective, in my judgment, is 
not nation-building. We have gotten beyond that. Our objective 
is to prevent a terrorist sanctuary. And if you define a 
terrorist sanctuary as being that you have to be able to live 
in comfort the way Osama bin Laden did in Pakistan, and that 
you need electricity, and you need access to some lines of 
communication and highways, if you define it that way, then 
there is no way in Afghanistan today that any terrorist can 
ditty-bop into some house and think he is going to be safe, 
turn anything on electric and think that he is still going to 
be alive within 24 to 48 hours.
    Our Special Operations Forces, the network of spies, and 
our extraordinary airborne surveillance and electronics mean, 
as I believe General Barno was just indicating, that we could 
sustain this. There will be no sanctuary there indefinitely 
with a small force provided we had some sort of long-term 
agreement with the Afghan Government.
    The Taliban can be pains in the neck in the rural areas for 
the next 100 years, but they lack mass, and they lack anything 
beyond basic weapons. The only way the Taliban can win, defined 
as taking the cities and becoming a government that supports 
terrorists, is that the Afghan Army collapses. It is the only 
way they can do it, whether we are there or not. 2014, 
therefore, I think, becomes the critical aspect when you are 
looking forward.
    I believe Afghanistan is going to be a mess in 2014 because 
the coalition economic aid and military aid is going to go off 
the side of a cliff. I don't particularly care if it is a mess 
economically and politically, provided the Afghan Army still 
remains together as an institution. And so I see that both the 
largest risk, Mr. Chairman, and our core interest, more than 
anything else, is simply sustaining resources for the Afghan 
Army.
    And the biggest risk I see is the parallel to Vietnam. 
General Allen is well aware that he is in the position of 
General Abrams in about 1970. And General Abrams, no matter the 
good job he did, as we began to withdraw our troops, we slashed 
the aid to the South Vietnamese Army, and eventually they fell 
apart.
    So I would recommend, Mr. Chairman, that serious 
consideration be given. We are broke as a country, and 
therefore serious consideration be given not to adding money in 
those out-years, but to arranging some sort of trade-off in 
terms of our near-term economic and military resources in turn 
for a lockbox. And I know you hear that, and you say, oh, you 
can never do it, but a lockbox for General Allen and for the 
commander after him so that he can tell the Afghan Army, we 
have money set aside for you, and I control that money with the 
Congress over the next several years, because that is the 
single greatest signal we can give to the Afghan Army is don't 
worry about it, we are still going to pay for you after 2014, 
because he who has the gold rules.
    Thank you.
    [The prepared statement of Mr. West can be found in the 
Appendix on page 72.]
    The Chairman. Thank you very much.
    During his testimony before this committee in March, 
General Petraeus noted that the United States had previously 
attempted both counterterrorism and counterinsurgency-like 
strategies, and that both had proven inadequate.
    Gentlemen, will we be able to continue a comprehensive 
counterinsurgency strategy with one-third of our troops 
departing, leaving Afghanistan before the end of the next 
fighting season? And how does the President's order affect the 
risk to our forces and to our strategic objectives?
    General Keane. Okay, I will start with that answer.
    Well, given the success that we have already achieved in 
the South, which, as I indicated, is quite dramatic, what the 
mission there is not to sacrifice that success by prematurely 
moving forces from there to the East, and that is what the 
command is assessing right now. I would imagine that they will 
accept some risk, probably in Helmand Province, and probably 
keep the forces where they are in Kandahar Province.
    And then the issue becomes the counterinsurgency strategy, 
which is necessary in the East to bring about the defeat of the 
Taliban and the Haqqani network as it operates in Afghanistan. 
We cannot do that alone with so-called counterterrorist 
activities, which, after all, was what we had been doing for 
many years while Afghanistan was on a diet in terms of 
resources, and that is what we were doing for 3 years in Iraq, 
and both of those efforts did not succeed against a reemerging 
Taliban in Afghanistan and a very significant presence by the 
Haqqani network.
    So, yes, the counterinsurgency strategy must continue to be 
applied, and I think what the command will do, those--certainly 
taking down one-third of the forces by September of 2012, make 
no mistake about it, will have significant impact. What they 
will try to do is mitigate those force reductions by using a 
number of enablers in the East; not just additional combat 
forces, but additional intelligence assets, acceleration of the 
Afghan National Security Forces for the East, dramatically 
increasing this program that I mentioned that is not 
particularly well understood, but it is having quite an effect 
in Afghanistan, and that is the ALP, Afghan Local Police, 
program.
    So they are looking at all of those things to mitigate that 
risk so that we can go into the East with a comprehensive, 
aggressive campaign and achieve the kind of results that we 
have achieved in the South.
    I believe the only way we can succeed is to put in play a 
counterinsurgency strategy in the East. It remains to be seen 
whether we will be as successful there as we were in the South. 
I am cautiously optimistic about it. Why? Because of the sheer 
talent of the people that we have, the leaders. Our force is a 
very experienced force, and they do know what they are doing, 
and also this growth and development of the Afghan National 
Security Forces.
    It's unfortunate they have to accept the degree of risk I 
am talking about. And listen to what I say about risk and what 
frustrates me so much about this decision. When you ask our 
forces, U.S. forces, to do more with less, what that means are 
more casualties. And that is the elephant in the room that we 
don't talk about, but that is the truth of it, what is going to 
happen here. And they will step up to that, and with all the 
courage and determination that they display every single day. 
They know what is going on here.
    So, yes, counterinsurgency strategy must be applied in the 
East. The Afghan National Security Forces will be a part of it. 
The command will find ways to mitigate the reduction of those 
forces, and it remains to be seen if we can be as successful as 
we have been in the South when we apply that strategy in the 
East.
    The Chairman. Thank you.
    General Barno.
    General Barno. I would just add briefly to that. I think 
the key to answering that question is whether the Afghan 
National Army can step up to the plate and actually enter the 
counterinsurgency fight in ways, with U.S. advisors, with U.S. 
enablers, that can allow Afghan units to substitute for 
American units.
    Right now there are 164,000 soldiers in the Afghan National 
Army. That is larger than the entire U.S.-NATO force combined. 
The question is, can those units, are they now at the level of 
training, of leadership, are they set up with U.S. advisors and 
adequate trainers to be able to substitute for some of these 
American units that are coming out? That day has got to come. 
Between now and the end of 2014, the major change we are going 
to make in our approach to Afghanistan is not in the 
counterterrorism arena. That is going to look very much the 
same in 2011, 2012, 2013, and 2014. What is going to change is 
how we prosecute the remainder of the campaign, the 
counterinsurgency campaign, and the big change there will be 
Afghan units stepping into the slots that American units are 
vacating as they come back home.
    So the critical element of success here is the capacity and 
the effectiveness of these Afghan units. If we can answer that 
question yes, then we can achieve what has been laid out over 
the next 2 and 3 years. But if they are not, much as Mr. West 
has pointed out, then we are going to have a very serious 
problem.
    The Chairman. Mr. Secretary.
    Mr. West. I think, sir, we get very confused when we use 
terms like ``counterterrorism'' and ``counterinsurgency.'' I 
don't really know what they mean. And I will say that I have 
spent a lot of time up in the East, Nuristan and Konar, et 
cetera. We are not going to take those mountains. We don't have 
the helicopters to do it. We are wearing a lot of heavy gear; 
the other side isn't.
    That fight in those mountains is going to go on for 
decades, but we shouldn't particularly care up in those 
mountains. They are just little pissants up there. I mean, they 
can give you problems, but they are not getting to Kabul. If 
they are not really getting down into the plains and coming 
after you, they can remain rabble up there fighting from tribe 
to tribe for a long, long time.
    What bothers me most about our counterinsurgency is that we 
have shoveled money at a problem in an astonishing way for no 
gain. The billions of dollars that we have been spending and 
spending and spending, saying that every soldier is a nation 
builder, what we have done is we have caused a culture of 
entitlement to spread among all Afghans over the last 10 years. 
And just as President Johnson found out it was wrong to have a 
``Great Society,'' when you--the same thing, I believe, has 
happened in Afghanistan.
    You don't get something back when you give something and 
expect nothing, because then you get nothing back. I don't 
think we are really going to see what is really going to happen 
in the East or in the South until we stop doing it for them, 
and I don't know whether that puts me in the counterinsurgent 
or counterterrorist camp, but either way, sir, I think as long 
as the Afghan Army is willing to get after it, it is going to 
be okay. If the Afghan Army isn't willing to get after it, it 
is not going to be okay. But on balance I think the Afghan Army 
is beginning to think, we can handle these Taliban, and we can 
handle Haqqani. And I think that should be the main effort, not 
the Americans doing it for them.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    If I could follow up on that actually, General West, I 
mean, that is kind of the issue. We need to hand off 
responsibility to the Afghans.
    So a two-part question. First thing, I want to get a little 
better idea from all of you, I guess, about the capability of 
the Afghan Army and the Afghan Police. We have spent a fair 
amount of money training them, and this question is not a mere 
matter of numbers, it is a matter of capability. But I know one 
of the big focuses in the surge in the last 2 years was to 
focus on that capability; was to focus on not just cranking 
them out, but actually give them the type of training to 
develop leadership skills, you know, to develop, you know, 
Special Forces capabilities.
    I know then we have had our Special Forces folks over there 
training Afghan Special Forces for a while. Those numbers have 
expanded. Logically it would seem that at least in the last 2 
years there should have been some sort of increase not just in 
numbers, but in capability of the Afghan--just focusing on the 
military and the police for the moment--on the security forces. 
I wonder if any of you could gauge a little bit how much that 
capability has increased.
    General Keane. I will be glad to start it.
    Well, I think that there has been significant growth and 
development here. And I have spent a lot of time on this, 
because for all the obvious reasons everybody sitting here 
knows that the Afghan National Security Forces eventually will 
determine whether we are successful in Afghanistan or not. So 
that is crucial to our future. So, thus, your question is right 
on the target.
    The fact of the matter is the growth of the Army has been 
more than acceptable, and I just don't use my own judgment 
about it, I am using the judgment of company commanders, 
battalion commanders. And what we are doing is we are operating 
side by side with them, and we did this in Iraq.
    And when we started to do that in Iraq in 2007, the growth 
of the force was exponential. While we have advisors with them, 
to be sure, when they operate with another infantry platoon, 
side by side, they see what the sergeant does; they see what 
the soldier does; they see how they do it; they see how they 
interact with their officers; they see their discipline, their 
determination; they see their integrity, all of that on 
display, it has quite an impact on them. So they have grown as 
a result of that, and that is going to continue.
    The police are still uneven and behind the growth and 
development of the army, and I think most everyone knows that 
is true in this room.
    I am encouraged by the army in its performance. I mean, 
there is a question mark out there, and we haven't answered it 
yet. As we transition to where they are in the lead, totally in 
charge, we have done that in six districts right now, and we 
are in the very beginning stages of that.
    Based on that transition, that is unfolding right in front 
of us, those transition decisions have been sound. There is no 
pushback in terms of the Afghans being in the lead. But none of 
those areas were real tough areas. That is coming in 2012, when 
we start to turn over what has been tough areas----
    Mr. Smith. If I could, I want to focus on the question a 
little bit. I don't want to take everybody else's time here.
    I guess the big question is that eventually we have to make 
that turnover. And then as Mr. West pointed out, you know, part 
of it is, you know, they have been getting something for 
nothing for a while. And we all like getting something for 
nothing, so you want to keep getting it. Isn't there a point at 
which that transition has to start? And if we were to say, as 
you suggested--and I am not quite sure whether--I don't think 
General West was suggesting this as well--that, you know, we 
shouldn't have--we shouldn't plan on drawing down 30,000 forces 
over the course of the next 18 months, we should keep it up, 
but if we had sent that message to the Afghan Army, if we had 
said, you know, relax, we are going to stick around for another 
year and a half, we are going to keep the same numbers, you 
know, doesn't that have the opposite effect? I mean, that sort 
of created the problem. Don't we have to do, in essence, what 
the President has said we have to do?
    I mean, we would all like to keep doing it with the most 
capable force in the world, which is ours, no question. But you 
can't make the transition if you don't make the transition, if 
you don't at some point begin to move the numbers back down. 
And we are talking about reducing by 30,000 over the course of 
18 months, leaving a force of 70,000 plus 40,000 in aid or all 
of that. I mean, isn't that sort of a reasonable transition 
towards accomplishing what I think all of you acknowledge is 
the most important thing, and that is getting the Afghan Army 
to take responsibility for the fight?
    General Keane. Well, before the President's decision, 
General Petraeus' campaign plan transitions the entire effort 
by 2014, because that was the Lisbon agreement that NATO [North 
Atlantic Treaty Orgnization] made, and the United States was 
part and parcel to that agreement, so----
    Mr. Smith. But we are not going to go 100,000 to zero on 
December 15----
    General Keane. It is indisputable that we are going to 
transition by 2014, and which provinces and which districts, 
you know, they have a detailed campaign planned for that based 
on what the conditions on the ground are.
    The only dispute over the 33,000 is the timing of it.
    Mr. Smith. Sure.
    General Keane. That is the issue, and I don't want to 
overly dwell on it. That is the issue is the timing of it.
    Mr. Smith. Right. But it is a rather critical point because 
it is the cornerstone of the message. And if the message is 
that decision has significantly undermined our ability to 
succeed, that is a pretty important point to be making.
    So I think it is worth dwelling on if we are talking about, 
you know, total transition, you know, by January 2014, and then 
by, you know, mid to late 2012 we are dropping 30,000--I mean, 
I mean, I am no expert in terms of how, you know, you slide 
down a graph here, particularly when you are talking about, you 
know, military matters, but it strikes me as reasonable from a 
basic numbers standpoint in terms of getting towards that 2014 
goal.
    General Keane. But it just ignores the operational 
requirements on the ground in terms of what we were--what we 
are trying to achieve. We have got two major operational 
efforts going sequentially versus simultaneously, which any 
commander would rather do, and the priority is in the East.
    I think what you will see the command do, they will try to 
keep these forces as long as they can keep them. As opposed to 
a gradual drawdown in 2012, it will probably look more like a 
waterfall come September.
    Mr. Smith. Right.
    General Keane. So they can keep those forces in the fight 
and then have them out on the President's timeline to be sure.
    Mr. Smith. Could I just quickly get the other two in here, 
because I am abusing my privileges here as ranking member. But 
I want to get just a couple quick comments from the other two 
generals about what they think about that analysis.
    General Barno. I don't think that the timeline for next 
summer is optimal. I think, you know, I have said in other 
commentary that that reduces the commanders' flexibility on the 
ground. On the other side of the coin, I don't think it is a 
game stopper from the standpoint of what commanders have to do. 
I think it makes it more difficult, it increases the risks.
    The more important conclusion, though, I think that needs 
to happen, or we need to just think about a bit is are we 
resourcing the effort to get the Afghan National Army into the 
fight well enough? The numbers I have seen this week point out 
that the number of trainers that they need in the Afghan 
National Army is about 2,800. That has been resourced at about 
1,600 for the last several years, about 58 percent. So we have 
not, despite the number of forces we have had in Afghanistan--
for whatever reason is partly because of NATO's commitments--we 
have not fully resourced training the Afghan Army. That needs 
to change because of the importance of their upcoming 
responsibility.
    Mr. Smith. Thank you.
    Mr. West.
    Mr. West. As any time you put an American battalion in the 
field, that battalion is going to fight. As long as the Afghans 
see us doing the fighting, they are going to let us do the 
fighting for them.
    Yes, I have been out there with them in March down in 
Sangin Province, which a tough place, Sangin district. I was 
out with an American platoon, a Marine platoon, that had side 
by side the Afghans. But every single firefight, of course the 
marines took the lead. So even though you were side by side, 
the American being the better fighter just fell into the lead.
    We are not going to know, sir, how good they are until they 
are out there by themselves. And I think they are going to cut 
a lot of deals, but on balance I am on the same side as General 
Keane. I think they can do it, but we are not going to know 
until they do it.
    And I took a poll of this Marine platoon just before I 
left, and I said, okay, guys, if you weren't here, could those 
Afghan soldiers handle it? And it was a 50/50 toss-up among the 
group on their arguing. Now, to me, 50/50 was good enough. I 
would have said, okay, cut them loose, and let us see what they 
can do.
    Mr. Smith. Right. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Whatever we do in Afghanistan, it will end up 
the ultimate exercise in futility unless Pakistan controls its 
tribal border areas with Afghanistan, because under pressure in 
Afghanistan, the bad guys will simply go to Pakistan and return 
so soon as we leave Afghanistan, and we have given them a 
timetable for when we are going to do that.
    Does Pakistan have the will and the capacity to control 
those border areas?
    General Keane. I believe they clearly have the capacity to 
do it. They have got an accomplished military that is well 
equipped. They have been spending a lot of time on 
counterinsurgency training, you know, for an army that, much 
like ours, was oriented on conventional operations, and we have 
assisted them with some of that transition, and they have 
improved rather significantly in the execution of them.
    So, yes, they have the capability to do it, but they 
clearly lack the will to do it.
    And, also, certainly as it affects Afghanistan and the 
sanctuaries themselves, I mean, they clearly see Afghanistan as 
part of their strategy with India. And there is the thought 
that as we continue to make progress in Afghanistan, 
particularly into 2012, that they would be persuaded that some 
of their goals as it pertains to Afghanistan--these are 
Pakistani geopolitical goals as it pertains to Afghanistan--
can, in fact, be achieved with the incumbent government that is 
there and also the one that would be there post-2014.
    That will be quite a diplomatic effort on our part to be 
able to achieve that in the face of what is now their national 
interest, and that national interest is supporting the Taliban 
and the Haqqani network in those sanctuaries.
    I think this whole thing with Pakistan, as I mentioned in 
my remarks, has got to be relooked because our current policy 
has not succeeded. And those sanctuaries, as they currently 
exist, do protract the war and put us in a situation of 
unacceptable risk, in my mind, as we continue to move towards 
2014.
    General Barno. I take a bit of a different view, I think. I 
have been to Pakistan probably 12 or 15 times. I noted I was 
there for a week in January. I spent 24 hours up in Peshawar up 
on the border areas there.
    And the first point I make is that Pakistan, when we talk 
about it, is not a unitary actor; that there are all kinds of 
factions inside of Pakistan. There are factions inside the 
army, there are all factions inside the ISI. They don't operate 
with a singular approach to anything. And so, the idea that 
there--the will and the capacity problem is not as clear as we 
might think it to be.
    The people I visited in Peshawar, chief law enforcement 
officer, the governor of Khyber Pakhtunkhwa, they both had 
friends and relatives being assassinated by the Taliban that 
were attacking inside of Pakistan. The chief law enforcement 
officer was having to buy ammunition with his own money for 
some of his troops. They were at war with an insurgency that 
was very much related to the insurgency right across the border 
in Afghanistan. So there are several different layers of 
fighting that is going on there.
    As a state, I think Pakistan is conflicted about where it 
is going and what it wants to do. It does not believe the 
United States is going to stay in this part of the world, and 
it is absolutely hedging its bets to be able to have maximum 
influence after the U.S. is gone. We in some fashion have to 
break that outlook if we are ever going to see Pakistan improve 
their policies.
    But the tribal areas today broadly are like the wild, wild 
West was for the United States in the 1800s. It is not an area 
they have a tremendous amount of control over, nothing like, I 
think, we expect them to have.
    Mr. West. Like General Keane, I would do whatever has to be 
done to shut down those two ammonium nitrate factories. That is 
just absolutely unacceptable.
    I think that the new approach to Pakistan of putting 
everything on a transactional basis, you get this money only if 
you do something, is the only way to deal with them, and they 
need that money for their lifestyles. And so we have more 
leverage than we think we have.
    And, finally, sir, no, I think that that fight in the 
mountains with Pakistan is going to just go on and on and on. 
But the Taliban have very rudimentary weapons. I notice that 
Pakistan hasn't been foolish enough to give them modern 
weapons. So you could see the border, especially in the 
mountains, ending up a mess for a long, long time, but you 
still could have some relative stability in Afghanistan.
    Mr. Bartlett. Thank you.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, gentlemen. Thank you 
for your testimony here today, and for appearing before us, and 
helping us to flesh out a path for a responsible drawdown in 
Afghanistan. I may have two questions.
    Mr. Langevin. First, I have long been concerned about our 
large troop presence in the country, and that we would be seen 
more as occupiers than protectors. But now that the apparent 
military successes, at least some successes, of the surge, it 
is imperative that we leverage our victories into strategic 
gains by slowly transitioning security responsibility now to 
the Afghan people, as we all recognize. While much of the 
future success of the war lies in the hands of others, 
including their regional neighbors, the Afghans themselves 
obviously will bear the burden for what their country looks 
like and who is involved in helping rebuild after we draw down 
in 2014.
    Now, while numerous reports have highlighted the importance 
of negotiations with Taliban forces, obviously their resistance 
to the Afghan Government, the assassination of senior leaders, 
and their stance on human rights makes this difficult. So I 
want to ask the panel what your assessment is of the incentives 
for the Taliban to negotiate, and what points, if any, the 
coalition should be ready to accept to keep them at the table.
    Second, I have specific questions for General Barno. In 
your testimony, General, you mentioned that one of the 
challenges facing the United States and Afghanistan is 
reestablishing working relationships with Pakistan. I would 
like your thoughts and the opinions, of course, of the other 
panelists if time permits on our relationship with Pakistan 
with respect to providing aid.
    During General Martin Dempsey's confirmation hearing 
yesterday, he suggested changing how we view our aid to 
Pakistan. Specifically he stated that pushing programs on 
Pakistanis that they don't desire dilutes the value of U.S. 
cooperation.
    So in light of the fact that the Emerging Threats 
Subcommittee that I sit on recently held a hearing on strategic 
communications 10 years after 9/11, I believe General Dempsey 
is right, and that we should be discussing this critical issue 
now as it affects how we are viewed in Pakistan as well as the 
greater Middle East.
    So my question is, what are your thoughts about how we 
currently provide aid to Pakistan, and how could we improve our 
aid to put the U.S. on a better footing with both the Pakistani 
Government and the populace in general? If we could, take 
Afghanistan first.
    General Keane. Okay. I will jump on the Afghanistan one and 
let Dave do the Pakistan.
    In terms of reconciliation or negotiations with the 
Taliban, it is certainly something that we should pursue, 
obviously. But I don't think it makes as much sense that we are 
doing it unilaterally and almost right out of the White House 
itself. After all, the Afghans have a large say here. The 
Pakistanis also have a say. And I do think it is a bit of an 
illusion in terms of any near-term achievement of 
reconciliation for a number of reasons.
    One, the Taliban themselves have not begun to internalize 
the fact that they cannot achieve their political goals through 
armed violence and haven't accepted that.
    I am not convinced there is a single province in 
Afghanistan that the Taliban could deliver a cease-fire. I 
mean, we are tracking 16 different insurgent groups under the 
general rubric of Taliban insurgency. And so it complicates it 
quite a bit from their perspective.
    The other players have a say here also in these 
negotiations, certainly Pakistan and the Afghan Government 
itself, and even the Afghan Government is divided on this 
issue.
    So I think we should be grounded in realism when it comes 
to reconciliation. I know there have been people in our 
government that have been pursuing this ever since the 
Administration conducted a review of Afghanistan and our future 
policy and a desire to have it. And certainly that desire is 
understandable, but at times it is not grounded in reality.
    We turn this war to our favor, that is Afghan favor and 
NATO favor, we will have a better leverage for this 
reconciliation that we are attempting to pursue.
    General Barno. On the question of Pakistan, you know, key 
issue that Pakistan, I think, is arguably the most dangerous 
country in the world. And it is also, by polling, the most 
anti-American country in the world. So changing those 
perspectives over time I think are essential if we are going to 
have any kind of relationship with the Pakistani leadership or 
the Pakistani people.
    On how to target and adjust aid, I think clearly that aid 
needs to be better conditioned, especially in the military 
sphere. We have been essentially in a lot of ways writing blank 
checks to the Pakistanis to reimburse them for military 
operations. That needs to be much more accountable and have 
more transparency in terms of how those American dollars are 
being spent by the Pakistanis. I think that there has been some 
improvements in that here in the last year that the 
Administration has put into place.
    On the civilian side, Kerry-Lugar-Berman money has been a 
great concept. It has put money in the civilian sphere in terms 
of development inside of Pakistan. It is underutilized right 
now. I think we are only spending somewhere in the neighborhood 
of a 15 or 20 percent obligation rate on an amount that has 
been actually appropriated. So there is an issue there.
    But one of our key objectives should be, I think, to 
reinforce the civilian government of Pakistan and build their 
credentials inside the country by using targeted U.S. aid to do 
that. That is a different set of actors in this nonunitary 
nation than what we have when we are only reinforcing the 
military by providing them aid, and I think again we have made 
some progress in that area.
    Mr. Langevin. Thank you, gentlemen, for your testimony, and 
I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Barno, several of us were in Afghanistan in the 
spring looking specifically at the village stability operation, 
Afghan Local Police initiative. Do you agree with General Keane 
that it is a game changer or a potential game changer?
    General Barno. I am a big fan of that program. I think it 
has been very late getting off the marks. Even during my era 
there, we had programs that were analogous to that that were 
stopped after I left because of contentiousness between how the 
State Department looks at this program and how the Defense 
Department looks at this program in some respects. So I am glad 
to see that under way. Almost any successful counterinsurgency 
that we can look back over in the last 50 years had a program 
like that. So I just hope it is not too late, but it is a 
program I think we need to reinforce as much as we can.
    Mr. Thornberry. General Keane, I hear some rumblings that 
there is resistance to this program, at least outside of the 
theater. And as you know, General Petraeus seems to be a big 
proponent of it. The folks who are there on the ground have 
been very strong. But as General Barno kind of alluded, there 
is some controversy, whether it is State Department, whether it 
is within the Pentagon or something. Can you help shed some 
light on that as far as what are the sorts of institutional 
resistances that we ought to be looking for on this program?
    General Keane. I am sorry, I can't help. I am not aware of 
that. I do know that the program is definitely succeeding. It 
has been embraced by the Afghan Government as well, because all 
of this eventually is part of the general rubric of the police. 
The district and provincial governors truly welcome the 
program. It frankly is succeeding beyond our expectations.
    And the reason I am so encouraged about it is because the 
local fighters are selected by the elders. They are picking who 
they want to defend their communities. We are giving them some 
basic training to be able to do that, and then we provide 
oversight and mentorship, you know, for that execution.
    And we are going to have problems with it. I mean, some of 
them will be abusive, some of them will be corrupt, and we will 
get an expose of it in one of our newspapers, to be sure. But I 
think by and large that is going to be aberration. The program 
is really solid. The Taliban are targeting them because they 
know how threatening they are to their success.
    But I don't know what is going on institutionally back here 
in Washington. Sorry, I can't help.
    Mr. Thornberry. Well, I think it is the sort of thing we 
may be doing in more places other than just Afghanistan, so I 
am interested in the capability beyond just Afghanistan.
    Secretary West, I want to ask about Pakistan. We are all 
grappling with this, and you suggest we need much more of a 
transactional model with them. At the same time, the withdrawal 
of the troops, the 2014 deadline, perhaps putting more 
conditions on aid also adds to the insecurity of Pakistan that 
we are not going to stick around. And if there is one thing you 
hear over and over again is that they remember when we left. 
They don't think we are reliable allies.
    How do you balance all of this with a country that does 
seem to have such deep-felt insecurities, but yet is pivotal to 
our success?
    Mr. West. I wouldn't bother about the balancing, sir. I 
would say, I have the money, and if you want the money, this is 
what you are going to do. And if you don't want the money, 
don't do it.
    Mr. Thornberry. You think they need the money bad enough 
that they will do whatever?
    Mr. West. Sir, the way they live, I wonder where the money 
would come from if they weren't skimming an awful lot of it 
from international aid. So, yes, sir, I do think they need the 
money.
    Mr. Thornberry. Okay. I appreciate it.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And I certainly 
appreciate all of you being here.
    I think that my colleague got into this a little bit, but 
could you go back into the training issue and what we are doing 
to really sustain that effort when we leave? Are we certain 
that the kind of tools that we are essentially giving them are 
ones that they are going to be able to use in the future? And 
to what extent are we not focusing perhaps on some of the 
things that we should be? General West, could you respond to 
that?
    Mr. West. I had a combined action platoon. We fought for 
485 days with the Vietnamese in a remote village. I have looked 
at a lot of the battlefields in Iraq and Afghanistan. I am 
absolutely convinced that all a trainer and advisor does more 
than anything else is he is trying to imbue a sense of 
confidence into his counterpart that that small unit can 
dominate on a battlefield and can hold its own. And once he has 
achieved that, he has achieved everything else. If he can 
inject in a spirit of dominance, a feeling that they are going 
to win when they get into a fight with the Taliban, then fine, 
he has done it.
    The dilemma then becomes how much can you do, and how long 
does it really take you to do that? Wow. We have been at it now 
off and on for 10 years, but as I indicated earlier, I think we 
are getting awfully close to having done it. And you can add 
the VSOs--I am sorry, the village stability operations--to 
this, fine. The more we can do, the better. But as long as we 
just give them the feeling they can do it, that is what we have 
to do more than anything else.
    Mrs. Davis. Anybody else want to comment?
    General Barno. I would just echo one of the earlier 
comments that sustaining this financially in the next several 
years is very important. We heard allusions back to Vietnam 
1972-1973, General Abrams and the loss of funding support for 
the Vietnamese Army. We don't ever like to draw analogies back 
to that campaign for obvious reasons. But the reality is that 
unless funding continues to meet the levels required to sustain 
this Afghan force, then at the same time we are drawing down 
Americans, we are going to be reducing the capability of the 
very force that are replacing Americans on the battlefield. So 
I think continued congressional support for their training and 
their equipping in the next several years is really important.
    Mrs. Davis. If you look at the overall effort in terms of 
financial costs of the war and sustaining it, at least into 
2014, where does that training piece fall in numbers and 
perhaps percentages of what we are doing right now?
    General Barno. The numbers I have seen--I can't absolutely 
verify these--I have seen in the last couple of days indicate 
that the amount of money required to sustain the Afghan Army 
the next several years is about $6 to $9 billion per year. And 
again, I don't want to put my name against that, but that is 
the estimate.
    And there is it also an illusion that we are going to--
actually resource it at about $4 billion a year is the number I 
saw. So there may be a delta opening open up already between 
what we know it is going to cost and what we are willing to 
write the check for back here. That nests within an overall 
effort somewhere north of $120 billion a year for Afghanistan. 
So that is a fairly modest increment of our large financial 
commitment there, if those numbers are accurate.
    Mrs. Davis. General Keane, did you want to?
    General Keane. Sure. There is very specific things that 
they need to be able to sustain their effort. I totally agree 
with Bing West about their heart and their commitment to be 
able to fight. And we are clearly moving in that direction.
    But frankly, they need helicopters to assist them. They are 
going to need a couple of C-130s [Lockheed Martin Hercules 
tactical airlifters] to move stuff around. And that is all in 
the plan. It is already in the financial stream. We just need 
to continue to make sure that we do that.
    The counter-IEDs. The enemy is using that technology and 
has killed thousands of us and even more of them. That 
technology that the enemy is using is not going to go away. And 
when we walk out the door, we cannot just leave them with their 
rifles to deal with that technology. We need to leave them with 
those balloons that are up in the air that you have all seen. 
We need to leave them with the surveillance technology that we 
have so they can counter that. That is a huge cost savings for 
us in the long run because we are leaving. But we are leaving 
them with a capability to be able to execute the mission 
without us. They need enablers to be able to execute----
    Mrs. Davis. I appreciate that, General Keane. I guess part 
of the difficulty, though, is that they have the ability to 
actually have the mechanics, to have the logistics, to have all 
the other pieces in addition to the pilots. And I guess part of 
the question is then whether--I mean, that is obviously years.
    General Keane. All of those training programs to acquire 
those skills, obviously the more sophisticated the skill for a 
society that is 60, 70 percent illiterate is more challenging. 
It is taking us a year to get someone through a school that 
requires sophisticated skills that would take 4 to 6 months 
back here in the United States for one of our soldiers.
    But all of those programs are in place. And the cost--to 
echo what General Barno was saying--the total cost is about $6 
billion. Of that, about 3 billion would be for the United 
States. Now, that scale may move, but that is what I was told 
as of a couple of weeks ago.
    Mrs. Davis. Thank you.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And I want to 
say I agree with you and my colleagues' concern about Pakistan 
and what we need to do from a diplomatic standpoint to create a 
better relationship.
    But I want to go to the next 3\1/2\ years. I want to start 
very quickly with on May 26, Lieutenant Colonel Benjamin Palmer 
and Sergeant Kevin Balduf, two marines from my district, were 
shot and murdered by an Afghan trainee. Sergeant Balduf had 
sent his wife Amy the day before he was killed an email: ``I 
don't trust them. I don't trust them for anything. Not for 
anything at all.''
    A marine general who has become a very dear friend of mine, 
who is retired: ``Continued belief that we can train the Afghan 
Army to be effective in the time we have is nonsense. The vast 
majority cannot even read. They are people from the villages 
hooked on drugs, illiterate and undisciplined.''
    That brings me to a couple more comments, and then I have 
got one question. Actually, George Will said that--and he was 
off a little bit, I am sure--that there are probably 20,000--
200,000, excuse me, Afghan who are trained to fight and about 
20 Taliban. Now, I realize you said, General Keane, it was 
about 164,000, or maybe you did, General. But the point is that 
they are trained, but they don't want to fight. So therefore, 
Sergeant Balduf had to give his life and Colonel Palmer.
    Well, the only other point this general who has become a 
very dear friend of mine, in asking him about staying there to 
2014--I am not going to read everything because I want to get 
to a question--but he said: ``Get real with training. And 
arming a police force? All we are doing is training eventual 
new members of the Taliban. Trainers are doing a wonderful job, 
but we don't have the time to make an army. Every day someone 
dies.''
    I want to know from one of you experts, because I have 
written to the Secretary--I mean, the Department of Defense, 
how many Americans will probably die or be severely wounded in 
the next 3\1/2\ years, in your opinion? And if you will give me 
a quick answer, I would appreciate it, just your ballpark idea. 
How many will be killed and how many will be wounded in the 
next 3\1/2\ years, Americans? General Keane?
    General Keane. Well, probably about another 1,000 killed 
and five or six times that seriously wounded in terms of 
catastrophic wounds.
    Let me just say something----
    Mr. Jones. I want to hear from the other two because my 
time will run out in just about a minute.
    General Barno. I wouldn't dispute those figures, 
Congressman.
    Mr. West. I had just written down just about----
    Mr. Jones. Sir, Would you speak up, please?
    Mr. West. I had just written down just about the same 
figures. About 1,000 will probably die, and about 7,000 would 
be seriously wounded.
    Mr. Jones. Okay. The point is if we are in 2014, let us say 
President Obama is still President or we have a new President, 
and they decide, the Department of Defense, that, no, we need 
to stay just a little bit longer to 2015, 2016. What would you 
be saying to a committee 3 years down the road about the 
Afghans? Are they ready now 3 years later to take over the 
fight, or are we still going to have to be there in large 
presence to make sure that they fight? And this will be my last 
question, obviously.
    General Keane. Well, just in terms of some feedback, I 
mean, I think your characterization of the Afghans, using that 
very dramatic and tragic example, is overly pessimistic and 
doesn't square with what we are seeing universally and 
generally speaking. Exceptions all over the place, to be sure. 
But our judgment tells us, based on experience that we have had 
with years in Iraq with that force and years with this force--
--
    Mr. Jones. General, excuse me 1 minute. We are saying to 
the Iraqis right now, do want us to stay there another year or 
two?
    General Keane. What our judgment is telling us is that 
based on what we see now with the Afghan National Security 
Forces, we should be encouraged, and that we can go forward and 
begin the transition with them, carefully, but begin that 
transition with them. And we will find out whether that 
judgment is correct or not.
    Mr. Jones. General.
    General Barno. I think we have a stair step down over the 
next 3\1/2\ years that has already been laid out that takes us 
to full Afghan ownership. Not all at the end of the 2014, but 
in steps between now and then, we need to measure that as we 
go, and we will have a very good estimation of whether that is 
working or not 6 months from now, 9 months from now, 12 months 
from now. We need to look at that carefully.
    Mr. Jones. Colonel.
    Mr. West. I have been on record for some time now of saying 
that I think we should have fewer of our own fighters there and 
more trainers and advisers with them. But right now the ratio 
is one American soldier to every two Afghan soldiers. I would 
like to see it be 1 American soldier to 10 Afghan soldiers.
    Mr. Jones. Thank you, sir.
    Thank you, Chairman.
    The Chairman. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I admire each one of you gentlemen, but I think there is 
only one of you who doesn't fit into a bureaucracy very well, 
and I think that is Mr. West. And I mean that as a compliment. 
Not only are you a writer, and I would commend to people your 
book, Afghanistan: The Wrong War, but your willingness to be 
embedded repeatedly at the platoon level is pretty remarkable.
    And when I get time sometime, I want to find out--I think 
you described it as the Nantucket of Afghanistan--exactly what 
the chain of command was that sent U.S. troops to a village 
with no strategic importance just because Hamid Karzai wanted 
them to go there to defend vacation properties for the Kabul 
elite.
    But more serious matters. Here we are 10 years into war, 
and even if you count all the folks who have come and gone, we 
can barely muster a majority on the Armed Services Committee to 
find out what is going on in Afghanistan. General West pointed 
out that I think we have had 10 generals in command in 
Afghanistan in 10 years. Several of you are veterans of 
committee testimony, and you have seen, you know, year in, year 
out, every time we are hopeful, and we are going to do a little 
bit better even though troops levels have changed so 
dramatically, it is hard for folks back home to understand. If 
we peel back the 30,000 in the so-called surge, we will still 
have over twice as many troops there as were ever there under 
the previous administration. Plus you throw in the 40,000 NATO 
troops, and you kind of wonder what they are doing, too.
    It makes me appreciate the plain-speaking approach of 
General West. He says in his testimony that he thinks that a 
lot of Afghans are chameleons. And this is not to fault anyone, 
it is just that, you know, it is the nature of the situation 
and of the people. And when General Keane says, well, they are 
getting a divorce from the Taliban, well, some people get 
remarried. Some people cohabit. Some people didn't really mean 
it to begin with.
    So I think the country is getting more than fatigued with 
this situation, as my colleague Walter Jones points out. The 
death toll, the casualty rate for what, is tougher and tougher 
for people to take, especially when we have such an ambiguous 
relationship with Pakistan across the border.
    I am hopeful that we can have military policies in the 
future that are more consistent and generals that plan and 
stick to approaches instead of--we have gone from 10,000 troops 
there to 130,000 troops, and I am still not sure that we have 
properly understood the nature of the enemy. We built them a 
dam in the 1950s that has barely been properly operated. The 
Russians gave them helicopters, and there are still Russian 
pilots in country, as you gentlemen know, ferrying people 
around because the Afghans never learned to pilot those 
helicopters. The assumption that training will work assumes a 
Western sort of mind-set that they are literate, and they are 
trainable, and they will not immediately flip sides to the 
other side with our money.
    So somehow we have to have better solutions, and I think it 
boils down to understanding the nature of the enemy. And I 
don't know anybody who understands that better than Mr. West, 
who has actually been there on the ground, walking the ditches 
with the troops.
    So I hope more Members will pay attention to this issue in 
general and to his writings in particular. To me at least, they 
have the ring of truth. I just fly in every year or two to see 
what is going on. But I don't know anybody, at least on this 
panel, who has spent more on-the-ground experience than Mr. 
West. So I appreciate you calling him as a witness, Mr. 
Chairman. And I hope that we can get a better and quicker 
solution to this problem.
    Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank all of you 
for being here today.
    General Keane, I was really looking forward to your 
appearance. Over the years you have been here numerous times, 
and I hope that people will look back. Every time you have been 
here, you have been very realistic, you have been very 
visionary, you have been very accurate. And in the entire 
Global War on Terrorism, you have added so much to help promote 
stability and success, protecting Americans at home by having 
success overseas. I appreciate your fortitude. You have even 
been ahead of the curve. I appreciate sometimes you have been 
politically incorrect. So thank you for what you have done.
    Then, General Barno, I want to thank you for your personal 
service, and then you mentioned your two sons. All of us back 
in South Carolina are very appreciative of your commanding Fort 
Jackson. You really set a standard for the young people who 
have the opportunity to serve our country.
    Additionally, I want to thank you. In 2003, you were my 
host as the Commander of Forces in Afghanistan. I want to thank 
you for your service there. It was really eye-opening. I have 
been there 11 times. I have seen an extraordinary development 
of the security forces in that country and the development 
really of a civil society in the third poorest country on 
Earth. But as we look at this--and when the President is right, 
I was very appreciative of commending the surge, and we have 
seen the success of that, as Secretary Bing has indicated.
    With the drawdown does the United States, General Barno, 
have sufficient forces in place to support the Afghan efforts 
to hold in the South and clear in the East?
    General Barno. My sense is that they do. I think, as I 
noted earlier, the commanders are going to be limited in what 
flexibility they would have had if they had those forces 
through the end of next year. I think the numbers coming out 
this year, the 10,000 that will be out by the end of December, 
that can be readily accommodated by plans that were already in 
place.
    Next year, I think it is going to be much more difficult 
for commanders not that the troops are departing, but that they 
are departing early enough in the year that it is going to have 
an impact over the fighting season. Is that going to cause the 
effort there to collapse? No. Is it going to increase the risk 
on the ground and make it more difficult? Yes.
    Mr. Wilson. You and I both are very proud fathers of people 
serving in the military today. At breakfast I had a family 
member of a person serving in Afghanistan, and they were 
expressing concern about the current rules of engagement. Do 
you feel that the rules of engagement enable our forces to be 
as effective as they need to be and also can protect 
themselves?
    General Barno. I might ask General Keane to comment on 
this, who has just come back. My sense is that we had some 
difficulties with our rules of engagement about 2 years ago, 
that they were too restrictive, and they were being interpreted 
too restrictively at lower levels. I think that was changed 
last summer. General Petraeus reviewed that when he came in and 
made some significant adjustments. So my sense is that today 
that those are about right, always subject to misinterpretation 
by people that are a little overzealous. But General Keane may 
have a current view on that.
    Mr. Wilson. And, General, what message would you have to 
military families on this issue?
    General Keane. Well, I spent a lot of time on this visit, 
you know, with platoons and companies who are in the fight, and 
it was not an issue for them. And it has not been an issue, I 
think, based on General Barno's comment, since General Petraeus 
ordered the entire review of this issue. And they did find that 
as the rules of engagement cascaded down from the top, that 
there were more restrictive measures being imposed by 
intermediate commanders. And while I am not going to suggest 
that that is totally removed, I didn't see any evidence of 
concern about it.
    So in terms of military family members, I mean, first of 
all, their youngsters are being extremely well led, and highly 
capable and motivated leaders who are out there working with 
them day in and day out. And they are very well resourced as 
well. And this is a resource in a sense, because how you use 
rules of engagement and apply combat power is crucial to the 
mission and to their success and to their survival.
    So I am pretty comfortable with what I have seen, and the 
families should be as well.
    Mr. Wilson. Thank you for those reassuring words, because 
there are family members who are very, very concerned. And I 
shared the same feeling that you did, that the extraordinary 
leadership really gives you confidence in our troops.
    I yield the balance.
    Mr. West. May I make a quick comment, Mr. Wilson, if I 
could? There is another part, though, that I think is 
disturbing. Do you know our soldiers and marines are not 
permitted to arrest any insurgents? Not permitted to do it. And 
that gets my pretty darn mad because you are out there, and you 
can kill somebody, but you can't arrest them. And I think 
people should look very carefully at how we ever got ourselves 
in a situation in fighting a war where you can't arrest 
anybody, because there are fewer people in prison in 
Afghanistan per capita than there are in Sweden. So we are 
trying to say that Afghanistan is more stable than Sweden.
    We have gotten ourselves, because of the backlash of what 
happened in the prisons going all the way back to Abu Ghraib, 
et cetera, we worked ourselves into a corner where we 
literally, literally have put handcuffs on our own troops along 
these lines. That has nothing to do with the rules of 
engagement, it was just I couldn't resist saying it, because it 
does affect morale, and it should be stopped. Somebody should 
really take a careful look at what we are doing to incarcerate 
and keep in prison those who are killing us.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Actually, Secretary West, maybe you could just sort of 
tease that out a little bit more. You just said it was not the 
rules of engagement that was creating that barrier. Is there 
some other restriction?
    Mr. West. Bluntly, it is a rule of engagement, and it is a 
rule of engagement that started because our NATO allies 
insisted on it, and we gradually picked up on it because they 
didn't want to have anything to do with anybody being in 
prison. So you turn them over to the Afghan system, and the 
Afghan system lets about 9 out of every 10 of them walk free 
after a little money passes while it is going through the chain 
of command. So that whole thing, it is a rule of engagement 
that hurts because it leaves people on a battlefield that still 
want to kill you.
    Mr. Courtney. And it is being driven by, again, the NATO 
Alliance?
    Mr. West. It is driven on the one hand by the politics of 
our own NATO Alliance, including our own politics, and on the 
other hand because it fits in very well with Karzai's 
hypothesis that there is no such thing as the Taliban, there 
are just wayward brothers, which has something to do with the 
whole way in which the Pashtuns do business with Pashtuns. You 
put it all together, and you end up with very few people 
staying in jail for over a year, even though they have been 
part of the IED groups that have killed Americans.
    Mr. Courtney. Thank you. I am sure that is going to get 
some of our attention.
    When Mr. Smith was asking questions earlier, General Keane, 
again this question of, you know, what is the transition 
balance that works. Admiral Mullen, in his last appearance 
before our committee on this issue, reflected towards the end 
of the hearing on the experience in Iraq, which, again, you 
showed great leadership in your testimony back in '07 and '08. 
And it reminded us that when the Status of Forces Agreement was 
negotiated, which again had a timeline for a drawdown, frankly 
there were a lot of voices even within the military and 
certainly within the Congress who were questioning whether or 
not the risk level was too high in terms of the SOFA [Status of 
Forces Agreement] plan. And his observation was that deadlines 
really do work; that, you know, pushing the Iraqis to have to 
step it up and obviously be experienced in the Kurdish North 
where General Odierno was kind of on the hot seat for a while 
there about whether or not to follow through with the SOFA, the 
timeline, and he made a pretty gutsy call to hang tough and 
stick with it.
    In retrospect, Admiral Mullen was actually saying that that 
was actually a very beneficial factor in terms of forcing an 
increase in Iraqi capability. And so listening to Mr. West's 
testimony about 1 to 10 would be his sort of preference right 
now, I mean, it just doesn't strike me that the drawdown that 
we are talking about here is really--we are in a zone that 
should be portrayed that negatively. Because I just feel that, 
again, using your experience, I mean, we saw that, in fact, 
deadlines do have a beneficial effect. And I just thought maybe 
you might comment on Admiral Mullen's observation.
    General Keane. No, I totally agree. And you remember the 
commanders did, when it came to the Status of Forces Agreement 
in Iraq, they did agree with those timelines based on 
experiences they were having. And here we already have the 
timeline. I mean, the timeline is 2014.
    What my comments dealt with is--and I agree with the 
commanders--General Petraeus and his team wanted to have 
approximately the same level of forces that we have now through 
this fighting season that we are currently in and through next 
fighting season, 2012. That was the issue, to be able to 
achieve our objectives in the East with the appropriate level 
of forces and still meet the 2014 drawdown schedule, with the 
entire Afghan National Security Forces being in the lead by 
that time. That is the difference that my testimony reflects.
    The second thing is dealing with the much larger issue 
here, and General Barno mentioned it in his testimony, and it 
is a huge elephant in the room, in terms of our stick-to-
itiveness and our commitment to the region and to Afghanistan 
and, in a sense, to Pakistan, and that is that we are staying. 
I am not suggesting we are staying at force levels that we 
have, but we are committed to the future security and stability 
of Afghanistan and part of the region.
    So what is being negotiated right now is the Strategic 
Partnership Agreement. Think of that as what we did in Iraq 
with the Strategic Framework Agreement with the Iraqis, which I 
always thought was actually more important than the SOFA 
agreement, because it established a long-term partnership 
relationship. That is what this is. If we get that done, that 
will be very important, because it will establish an enduring 
relationship with us to Afghanistan and, in a sense, to the 
region at large, which people out there clearly have to hear, 
and that is not what they hear right now.
    Mr. Courtney. I will follow up with that later.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And, General Keane, General Barno and Secretary West, thank 
you all for your service.
    And I think my question would be how do you define our 
security objectives in Afghanistan? And let me put out three 
elements of that and see if you all concur. It is to keep Al 
Qaeda out, to keep the Taliban from taking over the country, 
and to provide a permissive environment from which we can 
strike at targets in Pakistan.
    Would you all define our security objectives in the same 
way, or how would you differ? General Keane.
    General Keane. No, I wouldn't disagree with that. I would 
just add to that that part of the security objective is clearly 
to be able to transition the Afghan National Security Forces so 
that they can protect their own people and their own national 
interests.
    Mr. Coffman. General Barno.
    General Barno. The way I would modify that, I think, is to 
take it up a few feet to a regional level and say in the region 
what are we going to try to accomplish through our actions in 
Afghanistan in the coming years? And I think there are three 
vital issue interests we have out there, and yours, I think, 
fall very well within this.
    One is prevent Al Qaeda or associated groups from striking 
the United States again; secondly, to prevent weapons of mass 
destruction, nuclear weapons in particular, from falling into 
the hands of terrorists in this region, read from Pakistan. And 
the third is to really prevent a nuclear war between Pakistan 
and India and prevent vast instability in that part of the 
world that could spill over and impact the United States.
    So I think your objectives within Afghanistan very much fit 
into that, so I would agree.
    Mr. Coffman. Secretary West.
    Mr. West. I go along with that.
    Mr. Coffman. Thank you.
    Well, then, let me ask you this question, because it seems 
sometimes that we have gone beyond our objectives. And that is 
it really in our interest, or how does it fit within these 
objectives, to try to--have we given them a governance that 
looks more like us and less like them in terms of fitting into 
their political culture? Are we trying to restructure their 
society?
    When I was there last, there was a program, women's 
engagement, using military personnel, saying that in a 
conservative Islamic society, we were trying to raise the 
status of women, and so restructuring their society and giving 
them the economy that they have never had through U.S. aid.
    First of all, do you think I have accurately described some 
of our objectives in addition to what--the security objectives 
that we talked about? And number two, are they achievable? 
General Keane.
    General Keane. Well, I don't think they are an accurate 
reflection of what we are trying to do. I think we have scaled 
down our objectives rather considerably. And that largely deals 
with security and a capable Afghan National Security Forces 
that can take over from us.
    Are we trying to shape and influence some other things in 
Afghanistan in terms of the current government, and the 
incumbency that we have, and the problems of corruption we have 
with Karzai? Certainly. It makes sense that we do that. Have we 
supported some of the donor programs to help improve society in 
Afghanistan? We certainly have.
    But I don't see us involved in Afghanistan in a long-term, 
nation-building exercise, and I think we have scaled back our 
goals quite considerably.
    Mr. Coffman. General Barno.
    General Barno. I would agree with that. I think we had some 
probably extremely optimistic goals in 2001, 2002 in 
Afghanistan. Some of those have been realized. You have got a 
reasonable Constitution, one of the most moderate Constitutions 
in the Islamic world. You have an elected Parliament and 
President. I was there for the first election of Karzai and 
helped prepare the second one. Those were very good elections; 
10\1/2\ million Afghans registered, 8\1/2\ million voted.
    So democracy in their own version is definitely something 
that they are actually quite enthused about there, but I also 
don't think we are now of the opinion that we have the 
resources nor the time to try and rebuild an entire functioning 
state there; that we are going to try to look at it more in a 
much more limited sense than we were 6, 7, 8 years ago.
    Mr. Coffman. Secretary West.
    Mr. West. I only wish that were true. I wrote a book called 
The Wrong War, saying that our strategy of nation-building 
was--that Afghanistan was the wrong war to do that. I haven't 
seen any evidence that we have changed on the ground. 
Everything that we were doing last year, and the year before, 
and the year before we are doing this year. We are still out 
there doing the governance, we are still out there giving away 
the money, we are still out there saying we are going to have a 
rule of law, and we are still out there giving them security. 
So we are still full-scale ahead in nation-building and 
spending more money on it.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    Mr. Jones. [Presiding.] I recognize Mr. Johnson at this 
time.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, I recall during the time that the President was 
considering whether or not to order a troop surge into 
Afghanistan, there was an appearance on ``60 Minutes'' by 
General Stanley McChrystal, who was the Commander of the U.S. 
forces in Afghanistan. Do each of you recall that?
    General Keane. I don't recall it.
    General Barno. I didn't see the program, but I recall him 
appearing.
    Mr. Johnson. Okay. Do any of you have any knowledge as to 
whether or not the President actually authorized General 
McChrystal to take the issue public?
    General Keane. I don't know, sir.
    General Barno. I don't know the answer to that.
    Mr. Johnson. Well, would it have been the proper thing to 
do to gain--for a military officer under the control of the 
Commander in Chief, would it not have been a breach of 
protocol, to put it lightly, some might say insubordination, to 
actually go on TV and tell the American people that we needed a 
troop surge of 40,000 troops before the President had even made 
his decision? Was that an act of insubordination or at least a 
breach of protocol if he did it without authority?
    General Keane. Well, let meet answer that. I know General 
McChrystal very well, and that is totally out of character for 
General McChrystal to even suggest that he would try to 
leverage his President by making public statements.
    I do remember this. I do remember him responding to a 
question, I thought it was at a news conference after he made a 
speech and he responded to some questions, and they asked has 
opinion about the level of forces.
    Mr. Johnson. That is not the interview that I am referring 
to. It was a sit-down interview.
    General Keane. As I said before, I know McChrystal really 
well.
    Mr. Johnson. So you would speculate that he had authority 
to do that?
    General Keane. No. What I am speculating is that McChrystal 
had no malice intent here, that he responded to a question 
honestly, and he was not intending to leverage his President. 
If he had to do it over again, he would not have responded with 
that answer.
    Mr. Johnson. I understand.
    Does anybody have a different take on that?
    General Barno. I would just note that military officers, to 
include our commanders in the theater, make public appearances. 
And General McChrystal, I know, went to London. He spoke at the 
International Institute of Strategic Studies. The questions he 
got were following his speech there. The speech he gave would 
have been approved, and the fact he was there would have been 
approved. So I think that may be the context behind what you 
are asking.
    Mr. Johnson. So, in other words, then, that was a 
political--politics was involved in that decision, you are 
suggesting. And I suggest that we have heard comments today 
about the decision to draw down the troops was made on a 
political basis. And I submit that that is wholly in keeping 
with the decision that was made at the very beginning of this 
surge, which I believe has been somewhat successful. So the 
drawdown that the President as Commander in Chief has decided, 
looking at all factors including political realities, the 
drawdown is something that he decided, and we should respect 
that decision.
    Does anybody have anything to contest in what I have said?
    General Keane. Well, I don't want to speak for anyone else, 
but I don't think, given our backgrounds, that any of us would 
dispute the President's right to make that decision and weigh 
all the factors in that decision. But we are being asked to 
come before this committee to provide some advice and counsel 
about what is the future in Afghanistan and what are the risks. 
And what I identified, and I would speak for myself, I am 
saying that decision of 33,000 by next September has 
considerably increased the risk based on my analysis.
    Mr. Johnson. Certainly, and I can appreciate that.
    General Keane. And I have got to be straight up about that.
    Mr. Johnson. I can appreciate that, and I am not demeaning 
anyone's opinion here about what decision was made, but I am 
just simply defending the President's right to make the 
decision, and also putting that decision into the proper light, 
given what happened at the very beginning of the decision to do 
the surge was made. And I thank you, and I yield back.
    Mr. Jones. I recognize the gentleman from Virginia, Mr. 
Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Keane, General Barno, Secretary West, thank you so 
much for joining us today.
    I want to go back to one of the strategic questions that 
was asked and, Secretary West, get your perspective on this. 
Just as you heard, in the current course of action, the 
strategic plan currently appears to be in RC-East. And, of 
course, having visited there and talking to those commanders in 
both RC-East and RC-South, I know the effort now is to clear 
RC-East, go after the Haqqani network, and then in RC-South 
continue the clear-and-hold policy, and then institute the 
Afghan National Security Forces in that particular region, all 
of this going on with a termination date of 2014 and a troop 
drawdown of 33,000 by 2012.
    My question is can we continue to maintain success in that 
regional strategy of continuing to clear and hold RC-South, but 
continuing to be aggressive in RC-East to clear under that 
strategy? Do you believe that we are going to be able to do 
that under the current troop drawdown framework?
    Mr. West. Well, sir, if that is what General Petraeus 
wanted to do, and that is what General Allen wants to do, that 
is fine with me, because you only have one Commander in Chief 
at a given time. He has a huge staff. If that is the plan, 
because I don't know, but if that is the plan, I would fall in 
on the plan.
    Mr. Wittman. Okay. Very good.
    General Barno.
    General Barno. Again, I am certain that General Allen is 
going to do an assessment now that he is on the ground out 
there, and he is going to have to weigh his resources with the 
plan he was given when he arrived there and make his own 
decision on that. I can't really prejudge where that is going 
to go. And again, I go back to the question of the key to this 
may be how effective Afghan forces are in stepping up to the 
plate here in the coming year.
    General Keane. Now, that is clearly what the intent is, and 
General Allen, as General Barno indicated, along with his 
staff, is assessing all of that as we speak. And listen, we 
know a lot about the East because we have been there with U.S. 
forces since the inception. So we know where the major mobility 
corridors are that really do threaten Kabul and where the major 
safe havens are.
    We are also a lot smarter about what not to do up there, 
and General West indicated some of that, and that is to get 
lost up in the mountain with those villages that have been 
there for centuries, and not much is going to be changed by it. 
That is not what this effort will be about.
    So it will be a priority of effort with the appropriate 
level of resources and hopefully an acceptable level of risk.
    Mr. Wittman. General Keane, General Barno, let me get your 
perspective from a tactical standpoint. If you look at what is 
going on in RC-East--and, of course, I had an opportunity to 
visit there and talk to the commanders on the ground, and there 
are some challenges there obviously. Do you see in the mix of 
conventional forces and Special Operations Forces--where do 
you, in your opinion, see that going? Do you there being a 50/
50 mix? Do you see there being more of a Special Operations 
character to the tactical efforts there in RC-East?
    The reason I ask that is because I think it is a pretty 
dynamic environment there, and if we are going to be drawing 
down forces, we need to make very sure that we are spot on as 
far as the deployment of the existing forces that we have as 
that drawdown takes place.
    General Keane. Well, our Special Operations forces actually 
represent a very small part of our force levels, as you know.
    On average, we conduct 10 or 15 operations a night, most of 
them at night, going after what you know we refer to as high-
value targets, and sometimes it is an individual, sometimes it 
is more than an individual.
    Those operations will continue for some time, and the 
overwhelming number of operations in terms of Afghan National 
Security Forces and ISAF forces operating in RC-East or RC-
South will dominate by far what our Special Operations forces 
are doing.
    But I think what you will see, as we get closer to 2014, 
that we are transitioning the ANSF [Afghan National Security 
Forces], and we are having less involvement ourselves. Our 
Special Operations forces I would imagine will still have a 
pretty full plate, just as they do in Iraq today.
    Mr. Wittman. Sure.
    General Barno.
    General Barno. Yeah, I would defer to how General Allen 
looks at that and what kind of trade-offs he makes. But I think 
that is exactly right. One of the things I do project us seeing 
in Afghanistan is a steady-state commitment of our Special 
Operations Forces while our conventional forces draw down over 
the next several years and are replaced in many ways by Afghan 
forces.
    Mr. Wittman. I follow up with quick question on that. How 
do you see, collectively, the U.S. evaluating the efforts of 
the surge from 2009 through 2011? And looking at what needs to 
happen in RC-East, do you see a similar surge scenario having 
to happen in RC-East in order to combat the Haqqani network, 
which, as you know, is really the big challenge in that 
particular region?
    General Keane. I think, to use the term that we are most 
familiar with, the operation in the South became our main 
effort, to include Helmand and Kandahar Province. And by that 
we mean it normally is a greater application of resources 
against an opponent, and it is given a series of priorities of 
effort.
    That is what will happen in the East. It will become main 
effort. It will receive priority of resources, priority of 
surveillance, lots of effort in that area.
    Not all of it will necessarily mean additional brigades 
that have to go there. A lot of enablers will go there that are 
now in the South or someplace else. So it will become main 
effort, and it will receive the priority of effort of the 
command.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Jones. I recognize Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman.
    Secretary West, when you made the statement you don't know 
what counterinsurgency or counterterrorism mean, you made me 
feel really good because I have the same problem.
    So to the two generals, I would like to ask you what--when 
we say that we are changing the military strategy from 
counterterrorism, from counterinsurgency, what exactly does 
that mean to you? Or you can explain it to me and maybe to 
Secretary West. And, in addition to that, can you tell me what 
that is going to look like for our--basically our strength, our 
end strength, or what the forces are going to look like, and 
also what the composition may be, so that as we see the 
drawdown in Afghanistan and this new military strategy that is 
being employed now, what is it that we need to understand as to 
what the needs may be or the reduction would result?
    So, any one of you. And I don't mean to be insulting to 
you.
    Mr. West. No, I am very interested, too.
    General Keane. You know, these choice of words have been 
unfortunate from the very beginning, that people started to use 
them and started to use them as different strategies in 
particular. And I think that is where they become quite--they 
are just not useful.
    To be frank about it, I think to maybe understand the 
difference, as we are applying these terms, counterinsurgency, 
the emphasis is on protecting the people as job one, and 
certainly there is an enemy out there that we have to deal 
with. But the principle involved is the protection of the 
people.
    In counterterrorism the focus is exclusively on the enemy. 
And the way we apply it, it is mostly focused on individuals, 
what we call high-value targets, and less on organizations. And 
we are able to execute those targets based on very specific 
intelligence that we receive.
    Actually, to conduct a successful campaign against the 
insurgents in Iraq or in Afghanistan, you would have to do both 
of these to be successful. I cannot for the life of me see how 
we could just conduct operations against high-value targets and 
believe that we could be successful and ignore the rest of the 
problem.
    But I think the terms are not particularly useful in trying 
to understand what we are doing.
    Ms. Hanabusa. General Barno, do you have anything to add?
    General Barno. I guess the only thing I would add--and I 
will talk about maybe future forces since you asked about that, 
too--but I viewed, when I structured a counterinsurgency 
strategy when I was there, the first one that we had really 
applied there--I had the counterterrorism element of that as 
one of the pillars of the strategy; that focusing on the enemy 
was one of the aspects of a broader counterinsurgency strategy 
within which you had a governance pillar, within which you had 
a build Afghanistan Security Forces pillar, within which you 
had a regional pillar, and you looked at protecting a 
population and having an integrated overall effort.
    But you always have to have both. I mean, again, I agree, 
you can't have a counterinsurgency that doesn't have striking 
the enemy as part of it, but the broader context has to do with 
protecting the population from the enemy and separating the 
population from the enemy.
    To your question on the future, very briefly, I think that 
ultimately where this will take us is that we are going to see 
the counterinsurgency element of what we are doing, the 
population protection countering the Taliban element, become 
more and more Afghan-centric.
    I think we are going to continue our own counterterrorist 
forces, striking at both the Taliban leadership and the Al 
Qaeda leadership for a long time. Our end game there may be 
mostly, if not exclusively, seek heat forces, Special Ops 
Forces, with the Afghan Army with some advisers, and I think 
that is where our strategy ultimately takes us at the end of 
2014.
    Ms. Hanabusa. Just so that I am clear, General Keane, when 
you said that it is to protect the people, the 
counterinsurgency, I guess, strategy, is that the Afghan 
people, or is that our people in uniform?
    General Keane. No, that is certainly the Afghan people are 
center stage there. And that is a shorthand way of explaining 
the more complicated strategy.
    Ms. Hanabusa. So given that you are both retired--and I 
hope I can get some candid answers--so why would we in 
Congress, who latch onto these nice little terms of art, so to 
speak--you know, we have been told that there is a change, we 
are going from the counterinsurgency strategy to the 
counterterrorism strategy, and some of us have used it because 
of testimony that we receive. So can you tell me why, then, if 
it is really sort of both two sides of the same coin almost or 
yin and yang, you know, both necessary, why is it that we are 
being told that the military strategy has now changed its 
focus, if you know?
    General Barno. I don't think that the military strategy has 
changed its focus in Afghanistan. I think there has been a 
debate over the last 2 years whether the military should simply 
abandon counterinsurgency, remove the bulk of the troops, and 
then only have Special Operations Forces doing counterterrorism 
against Al Qaeda, maybe even doing it from offshore, not in 
Afghanistan.
    Ms. Hanabusa. Like Libya.
    General Barno. Well, hopefully not like Libya in some ways. 
But the outcome of that debate was, no, that is not adequately 
going to protect U.S. security interests, and that we had to 
have boots on the ground, and we had to be able to prosecute 
both components of this campaign.
    So I think, again, ultimately post-2014 we may have a 
counterterrorist strategy focused on Al Qaeda. But between now 
and then, we are looking at having both of these very much 
interconnected to each other.
    Ms. Hanabusa. So, quickly, will we then, of course, see the 
reduction in force? The end strength will, of course, naturally 
reduce because of that nature and that change?
    General Barno. Absolutely. And that is the game plan right 
now is that we move from, you know, a large number of American 
boots on the ground we have today to a much smaller number by 
the end of 2014 that will ultimately simply be focused on 
counterterrorism and Al Qaeda, with the Afghans taking on all 
the ownership, with some American support of the 
counterinsurgency effort against the Taliban.
    Ms. Hanabusa. Thank you, Mr. Chairman. My time has expired 
so I yield back.
    Mr. Jones. I thank the lady.
    I recognize the gentleman from Pennsylvania, Mr. Platts, 
for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    I want to first thank all three of the witnesses for being 
here and for your service to our country.
    Mr. Wittman from Virginia touched on a good part of what I 
wanted to focus on, and so I will try not to be repetitive.
    I guess the one issue, and, General Keane, in your 
testimony you address specifically the drawdowns of 10,000 and 
23- additional by September of next year. And my position on 
the issue of our troops in Iraq and Afghanistan has always been 
based on facts on the ground. And when we had the surge in 
Afghanistan, December of '09 with the announcement, it was that 
we were going to increase with the hope of drawing down by this 
summer, but with a caveat: Facts on the ground will guide what 
we do.
    If the President believes that facts today justify the 
10,000, that is one thing, but it is the fact that we are 
already assuming what the facts will be in 2012 and saying we 
will draw down another 23,000 raises concern to me. In your 
testimony you talk about--I forget how you exactly word it, but 
at a minimum, I think you said, delaying it to December of 
2012. I read from that that you think that planned 23,000 is 
premature or too much based on what we know today versus what 
may happen in the coming years. Is that a fair understanding?
    General Keane. Yes, I do. I mean, I think the number is 
excessive, given what the conditions on the ground are would 
need to be done, and it drives up the risk considerably. And 
obviously General Petraeus, who had considerably more knowledge 
than all of us, you know, felt the same.
    The point I was making, that we now have the decision, and 
we are obviously to going to make--mitigate that risk as much 
as possible. One of the ways we could mitigate it, it would 
seem to me, is to keep the 23,000 that we are going to take out 
next year in the fight through the fighting season, which will 
end in the fall. And that would require going back to the 
Secretary of Defense and to the President and asking for 90 
days extension on that number. And that keeps that force level 
high through the fighting season, and obviously we would get 
the kind of results, you know, from that and reduce the risk. 
That is something that I think is not unreasonable. Whether the 
President would entertain that or whether General Allen 
believes that is necessary, I don't know. He is doing an 
assessment as we speak.
    Mr. Platts. The other point, maybe for all three of you, is 
one of the keys as training up the Afghan Security Forces 
certainly is it benefited them being partnered with our forces, 
so not just through the basic training, but actually in the 
field. And the drawdown this year of 10,000 and 23,000 means 
there is going to be significantly less opportunities for that 
type of partnering to occur in the field versus just making 
sure they have good training, basic training.
    Is that a fair concern to have, that that is going to be an 
impact of what we are doing, that that in-the-field partnering, 
so that we don't kind of finish the job in the training up the 
of who alternately is going to need to provide for the 
security, the Afghans themselves?
    General Barno. I think it is not entirely clear that that 
will be the direct effect. I mean, and that will be based on 
where the forces are that are drawn out. If they are drawn out, 
in the case of this year, from northern Afghanistan, for 
instance, the necessity of partnering there may be less 
important than it is, obviously, in the South and the East.
    And then the other thing, I think, to point out is that 
unless things have changed, a large number of American forces 
aren't currently partnered with Afghan forces. So it is not 
initially going to be a one-to-one correlation, I don't 
believe.
    Mr. Platts. Okay. All right. Thank you.
    General Keane. I don't see it as a major issue. The main 
effort will be in the East, and I think they will accelerate 
the number of Afghan Security Forces, probably there much more 
so than they had originally intended to do, because of this 
reduction of ISAF forces. And I think there will be plenty of 
opportunity to partner with Afghans and for them to get the 
benefit that that partnership, at least to this date, has been 
pretty positive.
    Mr. Platts. Great. I thank again all three of you for your 
testimony, but especially your service over many years.
    Mr. Chairman, I yield back.
    Mr. Jones. I recognize the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman, and, Generals, 
thank you very much for your long service to America and your 
continued concern and participation in helping us define our 
strategies.
    General West, your view that we ought to be drawing down 
our troops is one that I share, but very little discussion here 
today about negotiations amongst the Taliban. We talked a 
little bit about the role of Pakistan in that process.
    Could you, General West, expand on the issue of 
negotiations? Should there be negotiations? What are we going 
to do? I know General Keane said there are 16 different groups 
out there that we generally lump as Taliban. Could you talk to 
me about this?
    Mr. West. Sir, I have no competence in it, so I will just 
say that I am, you know, a typical marine hard-nose. Beat them 
first and then negotiate with them would be my attitude. We 
certainly don't want to see any Mr. Kissinger having peace like 
he did in 1972.
    I would use the word ``Hezbollah.'' I can't conceive of the 
Taliban really being honest negotiators with you that they are 
going to give up their right to shoot you in the back. So I 
look at them, even if they were part of a government or 
anything, as being just like the Hezbollah in Lebanon; that 
they and the Afghan Army will remain, under any conceivable 
circumstance, mortal enemies.
    Mr. Garamendi. Did you say the Afghan Army?
    Mr. West. Yes, sir. The only institutional force that I can 
see in Afghanistan that can hold it all together--and we are 
well on our way to doing it--is the Afghan Army. So if you have 
this institutional force that believes it is protecting the 
nation, and then you bring in people like the Taliban, one 
group or another, and you know that regardless of what they 
promise, they still somehow are a group that is sinister, then 
you are going to have this tension whether or not you have 
negotiations.
    Mr. Garamendi. Now, the Afghan Army is made up of multiple 
ethnic religious groups; is it not?
    Mr. West. I certainly hope so, yes, sir.
    Mr. Garamendi. Their allegiance is to whom?
    Mr. West. See, that is really interesting, and we won't 
know until they are put to the test without us being there 
holding their hands.
    Mr. Garamendi. It seems to me their current allegiance may 
be to the paycheck that we are providing.
    Mr. West. Well. That is why I suggested a lockbox so that 
they know that General Allen can continue to pay them, and the 
person after General Allen can continue to pay them, because he 
who has the gold rules.
    Mr. Garamendi. That is a very dicey situation, that the 
allegiance of the army is really to the paycheck that America 
gives to them, and that is some $8 to $10 billion a year 
forever more.
    Does the institute, U.S. Institute of Peace, play any role 
in trying to resolve some of these issues and move us forward?
    Mr. West. I don't know, sir. Maybe General Barno will know.
    General Barno. I have actually worked with them quite a bit 
over the last several years, and I have found them to be very 
useful. They don't got a lot of publicity about what they are 
doing, but they have a tremendously useful behind-the-scenes 
role in reaching out and touching some of these groups, 
bringing them together and convening elements that wouldn't 
have the opportunity to do that, and organizing some of these 
efforts that I think may ultimately be very helpful to our 
long-term transition in Afghanistan.
    So I am a fan of them. I think they are a pretty effective 
organization----
    Mr. Garamendi. I think also Pakistan would be similarly 
situated. They play a role there.
    General Barno. They certainly do. And I have been involved 
with some of their efforts with Pakistan.
    Mr. Garamendi. Thank you.
    One final question in the last minute, 7 seconds, and that 
has to do with the penultimate goal here. Is it to build a 
nation, or is to it protect America and our allies from 
terrorist attacks? Let us start with General West.
    Mr. West. I would say it is the latter, sir. I think that 
is why as long as we have a strong Afghan Army----
    Mr. Garamendi. I am not sure your microphone is on.
    Mr. West. I would say that we are there for our own 
interests to avoid terrorist attacks against us. The way to do 
that is to have a strong Afghan Army even if the politics over 
there are all screwed up.
    General Barno. Yeah, I would agree. I think the United 
States is in this region to protect U.S. vital national 
security interests, and those transcend just what we are doing 
right now in Afghanistan.
    General Keane. This has always been about the American 
people. Our troops understand that. That is why they are 
willing to go back time and time again. It is our security that 
is at stake here.
    Mr. Garamendi. I thank you, gentlemen. It seems to me that 
it is the terrorist attacks that took us there in the first 
place. Building a nation there is a difficult task, one that 
has never been achieved by anybody, and that we should continue 
our focus like a laser on the terrorists wherever they happen 
to be.
    Thank you very much, gentlemen.
    Mr. Jones. I recognize the gentleman from Arkansas, Mr. 
Griffin, for 5 minutes.
    Mr. Griffin. Thank you, Mr. Chairman.
    Thank you all for your service. Thank you for being here 
today.
    I will address this question initially to you, Secretary 
West, but if any of you all want to chime in, that would be 
great.
    We have heard someone here today, I am not sure exactly who 
it was, allude to the possibility of infiltration of the 
Taliban into the ANSF. And I am wondering if you think the 
threat of infiltration, of the Taliban getting into the ANSF, 
if you think that is a--those are isolated incidents, if you 
think there is a threat of significant infiltration 
particularly as we are drawing down. And I would be interested 
to know what specific--if you do think it is a threat, what 
specific steps we are taking to make sure that we are tracking 
this.
    Mr. West. Sir, it is a problem. I don't think it is hugely 
significant, but it is a problem, because if it begins to get 
in the minds of our advisers, then it becomes a bigger problem.
    But I have been out with the Afghan Army, with our 
advisers, when they have grabbed different guys, and they are 
trying to find out if they are Taliban, and I was surprised to 
see how difficult it is. One Afghan lieutenant just turned to 
me one day and he said, they are magnificent liars. So you can 
have some of them in there, and you wouldn't even know it.
    I know that we are trying to take steps to guard against 
that. In the end you can never guard against it 100 percent. I 
don't see it being that large a problem, but you can't let it 
start to play with your mind.
    General Barno. I think right now they are isolated 
incidences, but they are very concerning because they do 
undermine American confidence in the Afghan units they are 
working with. That is very dangerous. I think broadly the 
Afghan Army has a very strong internal inoculation against 
sympathy towards the Taliban. They are the bulwark in that 
country between the Taliban and Taliban taking over their 
government outside the international forces. So I think there 
is some very strong DNA they have that are going to make them 
broadly very institutionally resistant to this taking any roots 
there.
    General Keane. I don't see it as a future major problem at 
all. And quite the opposite is happening, not on the scale we 
found in Iraq certainly, but it is beginning to grow now in 
Afghanistan, and that is Taliban fighters turning sides and 
coming over and being--the word is ``reintegration'' is the 
policy term that describes it.
    And more of that is happening. I mean, the program is 
constipated by the bureaucracy in Afghanistan Government, to be 
frank about it, but there are plenty of opportunities now, 
particularly for local fighters who are less ideologically 
aligned, to go back to what they were doing before they became 
a fighter and to reintegrate into society.
    Mr. Griffin. I was there in Afghanistan over Memorial Day, 
and there was a lot of talk about reintegration, and 
particularly, as you say, for folks who may have been in the 
Taliban for practical reasons, they are just local and looking 
for a group with whom--with which to be affiliated and are not 
real interested in the ideology. It had been pretty easy to 
pull those folks back.
    So you are not concerned as we draw down that this would be 
a problem in the leadership ranks, because that is where I 
could see there being a substantial erosion of the police 
force. But it sounds like you are not too worried about it.
    Thank you all.
    Mr. Jones. I recognize the gentleman from New Jersey, Mr. 
Andrews, for 5 minutes.
    Mr. Andrews. Thank you.
    Gentlemen, thank you for your service to our country, and 
thank you for your contributions to our committee over the 
years. You have really been a great source of information. We 
appreciate all three of you.
    General West, you state something that I agree with, which 
is our fundamental national security goal in Afghanistan is 
preventing a terrorist safe haven inside Afghanistan. I agree 
with that. And I would sort of ask the question these days, a 
safe harbor for whom?
    Recent news reports have indicated substantial degradation 
in Al Qaeda's capabilities. I would like to ask each of the 
panel your own assessment of Al Qaeda's capabilities today, 
whether you agree or disagree with those reports; and, second, 
if there are other forces besides Al Qaeda that you worry about 
taking root in those sanctuaries and using them to attack the 
United States.
    General, if you would like to start, I would like to hear 
from all three of you.
    Mr. West. Well, this will be very brief, sir, because I am 
not in that intelligence loop, but I can tell you when they get 
on the battlefields inside Afghanistan, I noticed both in the 
South and in the North you get the immediate rumor that there 
is somebody who is speaking either with a Pakistani accent, and 
occasionally you get a rumor that there is an Arab. So they 
don't exactly fit in. So I see them as being pretty isolated 
when they come into Afghanistan.
    Mr. Andrews. General.
    General Barno. I think that I am a bit of a skeptic on the 
prevailing wisdom that seems to imply that Al Qaeda is now on 
the ropes, maybe down and out, and that they have been 
decimated as an organization. They have been very badly 
damaged. The death of bin Laden adds to that. But I also think 
that they are keen to reassert themselves and attack the United 
States again. And I think one of the lessons over the last 10 
years, if there is any lesson, is that they are a very 
adaptive, survivable organization and one that remains 
committed to attack the United States.
    Mr. Andrews. Are there other organizations you think are 
similar and would be a threat to us?
    General Barno. We are seeing the growth of those, Lashkar-
e-Taiba for one, inside of Pakistan. A number of these groups 
inside of Pakistan are beginning to take on international 
objectives they never did before. I think we have to be very 
cautious about that.
    Mr. Andrews. Thank you.
    General Keane, what is your take on this?
    General Keane. Yes, Al Qaeda has been hurt rather 
significantly with--certainly in its leaders and also, frankly, 
in a lot of its fighters. But they remain a dangerous 
organization, and we can't keep our eye off the ball here.
    And one of the things that they still have people that are 
attracted to it is because of their ideology. And so the 
organization lives beyond its iconic founder, bin Laden, 
because people fundamentally believe in the ideology.
    Mr. Andrews. Yes, Al Qaeda is really an idea, it is not 
about a person, isn't it?
    General Keane. Yes.
    Mr. Andrews. The idea that our way of life is a threat to 
their beliefs, and, therefore, as long as we perpetuate our way 
of life, which, God willing, we will, they are going to be a 
problem.
    Now, the second thing, General Keane, that you made 
reference to is your view of the complicity of the Pakistani 
leadership in maintaining these safe harbors. What would you 
suggest that we do about that? In other words, what tools do we 
have to alter the behavior of the Pakistani leadership?
    General Keane. Well, I personally believe we have got to 
take the gloves off with them because we have been dealing with 
this relationship, and I call it the soft diplomatic approach, 
for a number of years, and we have made no dent whatsoever in 
the capacity of those sanctuaries.
    And let us put the cards on the table. I mean, out of those 
sanctuaries every single day comes a capability that kills and 
maims our troops, as well as the Afghan Security Forces. So we 
have got to relook the strategy.
    Mr. Andrews. What does ``take the gloves off'' mean, 
though? Does it mean that we ourselves attack the area? What 
does it mean?
    General Keane. No. I think, first of all, admit to 
ourselves that Kayani and Pasha and other members of their 
government lied to us routinely, much like the Soviets used to 
in trying to manipulate us. And, too, clearly, we have got 
national security objectives in that region. We should be in 
pursuit of those. Pakistan is part of that, I am not suggesting 
it is not.
    But I think we have got to get a lot tougher with them than 
what we have been. They are dependent on financial aid, and we 
have all suggested up here that there should be some kind of 
conditions associated with it.
    Mr. Andrews. Let me play a quick devil's advocate for a 
minute, it is not my view, but withdrawal of aid or other 
conditions against the Pakistani Government would have give way 
to a more radical and even less friendly Pakistani Government 
that would have access to nuclear weapons. What is your answer 
to that?
    General Keane. Well, we have been spooked by this issue 
ever since bin Laden ran into Pakistan. I was not convinced of 
it then, and I am not convinced of it now.
    The military in Pakistan, we have checked on this, are--
those sites are very secure by that military, and it is the 
number one institution in Pakistan.
    Mr. Andrews. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Jones. I want to thank you, General Keane, General 
Barno and Secretary West, for being here today. It has been a 
great hearing, and thank you so much for sharing your 
expertise.
    I would like to say to the former chairman of this 
committee, Duncan Hunter, Sr., thank you for being in 
attendance today.
    We are adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 27, 2011

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 27, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 68164.001
    
    [GRAPHIC] [TIFF OMITTED] 68164.002
    
    [GRAPHIC] [TIFF OMITTED] 68164.003
    
    [GRAPHIC] [TIFF OMITTED] 68164.004
    
    [GRAPHIC] [TIFF OMITTED] 68164.005
    
    [GRAPHIC] [TIFF OMITTED] 68164.006
    
    [GRAPHIC] [TIFF OMITTED] 68164.007
    
    [GRAPHIC] [TIFF OMITTED] 68164.008
    
    [GRAPHIC] [TIFF OMITTED] 68164.009
    
    [GRAPHIC] [TIFF OMITTED] 68164.010
    
    [GRAPHIC] [TIFF OMITTED] 68164.011
    
    [GRAPHIC] [TIFF OMITTED] 68164.012
    
    [GRAPHIC] [TIFF OMITTED] 68164.013
    
    [GRAPHIC] [TIFF OMITTED] 68164.014
    
    [GRAPHIC] [TIFF OMITTED] 68164.015
    
    [GRAPHIC] [TIFF OMITTED] 68164.016
    
    [GRAPHIC] [TIFF OMITTED] 68164.017
    
    [GRAPHIC] [TIFF OMITTED] 68164.018
    
    [GRAPHIC] [TIFF OMITTED] 68164.019
    
    [GRAPHIC] [TIFF OMITTED] 68164.020
    
    [GRAPHIC] [TIFF OMITTED] 68164.021
    
    [GRAPHIC] [TIFF OMITTED] 68164.022
    
    [GRAPHIC] [TIFF OMITTED] 68164.023
    
    [GRAPHIC] [TIFF OMITTED] 68164.024
    
    [GRAPHIC] [TIFF OMITTED] 68164.025
    
    [GRAPHIC] [TIFF OMITTED] 68164.026
    
    [GRAPHIC] [TIFF OMITTED] 68164.027
    
    [GRAPHIC] [TIFF OMITTED] 68164.028
    
    [GRAPHIC] [TIFF OMITTED] 68164.029
    
    [GRAPHIC] [TIFF OMITTED] 68164.030
    
    [GRAPHIC] [TIFF OMITTED] 68164.031
    
    [GRAPHIC] [TIFF OMITTED] 68164.032
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 27, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. When I was in Afghanistan in February, we had dinner 
with Ambassador Eikenberry and several Afghan legislators. They 
discussed with us, at length, the problems with President Karzai's 
attempt to unseat a large number of non-Pashtun legislators and replace 
them with Pashtuns. This action, which the legislators said was 
unconstitutional, seems like it could easily result in increased strife 
between ethnic groups and lead to the breakdown of the Afghan 
government.
    a. What do you believe the United States should be doing about this 
if anything?
    b. Will Afghanistan turn out well in the long run if the President 
of Afghanistan takes actions that lead to ethnic strife and loss of 
faith in government?
    General Keane. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Many observers have pointed out that much of the 
Afghan government is made up of former mujahidin commanders of the '80s 
and the Northern Alliance commanders of the '90s. Many of these 
commanders financed their activities in those days through the 
narcotics trade and other activities that most people would consider to 
be organized crime. Now that they are in power, a lot of people believe 
that they are continuing their activities and have formed ethnic 
mafias, that are sometimes referred to as ``criminal patronage 
networks.'' These mafias have been accused of sometimes dealing with 
the insurgents and sometimes fueling the insurgency by using government 
positions and power to exploit common Afghans who have to turn to the 
Taliban for protection and revenge.
    a. Do you believe that an Afghanistan where these mafias dominate 
large parts of the government can ever end the insurgency and create a 
stable country?
    b. If not, what should the U.S. be doing to combat them?
    c. How far can we push them, given that some of the leaders of the 
mafias hold very senior positions in the Afghan government?
    General Keane. [The information was not available at the time of 
printing.]

    Ms. Bordallo. When I was in Afghanistan in February, we had dinner 
with Ambassador Eikenberry and several Afghan legislators. They 
discussed with us, at length, the problems with President Karzai's 
attempt to unseat a large number of non-Pashtun legislators and replace 
them with Pashtuns. This action, which the legislators said was 
unconstitutional, seems like it could easily result in increased strife 
between ethnic groups and lead to the breakdown of the Afghan 
government.
    a. What do you believe the United States should be doing about this 
if anything?
    b. Will Afghanistan turn out well in the long run if the President 
of Afghanistan takes actions that lead to ethnic strife and loss of 
faith in government?
    General Barno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Many observers have pointed out that much of the 
Afghan government is made up of former mujahidin commanders of the '80s 
and the Northern Alliance commanders of the '90s. Many of these 
commanders financed their activities in those days through the 
narcotics trade and other activities that most people would consider to 
be organized crime. Now that they are in power, a lot of people believe 
that they are continuing their activities and have formed ethnic 
mafias, that are sometimes referred to as ``criminal patronage 
networks.'' These mafias have been accused of sometimes dealing with 
the insurgents and sometimes fueling the insurgency by using government 
positions and power to exploit common Afghans who have to turn to the 
Taliban for protection and revenge.
    a. Do you believe that an Afghanistan where these mafias dominate 
large parts of the government can ever end the insurgency and create a 
stable country?
    b. If not, what should the U.S. be doing to combat them?
    c. How far can we push them, given that some of the leaders of the 
mafias hold very senior positions in the Afghan government?
    General Barno. [The information was not available at the time of 
printing.]

    Ms. Bordallo. When I was in Afghanistan in February, we had dinner 
with Ambassador Eikenberry and several Afghan legislators. They 
discussed with us, at length, the problems with President Karzai's 
attempt to unseat a large number of non-Pashtun legislators and replace 
them with Pashtuns. This action, which the legislators said was 
unconstitutional, seems like it could easily result in increased strife 
between ethnic groups and lead to the breakdown of the Afghan 
government.
    a. What do you believe the United States should be doing about this 
if anything?
    b. Will Afghanistan turn out well in the long run if the President 
of Afghanistan takes actions that lead to ethnic strife and loss of 
faith in government?
    Mr. West. I do not know; I believe Ambassador Crocker is best 
qualified to answer. Karzai is erratic beyond our control. We are 
spending too much in that country. We should pay the Afghan Army 
directly, not through Karzai. That is the single most powerful lever to 
prevent strife.
    Ms. Bordallo. Many observers have pointed out that much of the 
Afghan government is made up of former mujahidin commanders of the '80s 
and the Northern Alliance commanders of the '90s. Many of these 
commanders financed their activities in those days through the 
narcotics trade and other activities that most people would consider to 
be organized crime. Now that they are in power, a lot of people believe 
that they are continuing their activities and have formed ethnic 
mafias, that are sometimes referred to as ``criminal patronage 
networks.'' These mafias have been accused of sometimes dealing with 
the insurgents and sometimes fueling the insurgency by using government 
positions and power to exploit common Afghans who have to turn to the 
Taliban for protection and revenge.
    a. Do you believe that an Afghanistan where these mafias dominate 
large parts of the government can ever end the insurgency and create a 
stable country?
    b. If not, what should the U.S. be doing to combat them?
    c. How far can we push them, given that some of the leaders of the 
mafias hold very senior positions in the Afghan government?
    Mr. West. a. No.
    b. The only hope is for the U.S. to create and to pay directly an 
Afghan Army that in turn will have to impose its will through force.
    c. He who has the gold, rules. The U.S. should pay the Afghan armed 
forces, cut out the middle men and ignore the yelping.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. When President Obama announced the United States would 
draw down forces in Afghanistan by 10,000 by the end of this year, he 
reiterated the core U.S. goals: To disrupt, dismantle, and defeat Al 
Qaeda and its extremist allies and to prevent their return to 
Afghanistan or Pakistan. Do you believe killings such as that of 
Kandahar's mayor, Ghulam Haider Hamidi, is an indication of further 
events we can expect as American troops are leaving?
    General Barno. [The information was not available at the time of 
printing.]
    Mr. Conaway. Based on the current fiscal environment in the U.S. 
and the necessity to reduce spending, realistically, what role should 
the U.S. and the international community be playing in Pakistan to 
ensure stability in this region?
    General Barno. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
